<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2017</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                    LEGISLATIVE BRANCH APPROPRIATIONS
                                 FOR 2017

_______________________________________________________________________

                                 HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION


                     _____________________________
 
                    SUBCOMMITTEE ON LEGISLATIVE BRANCH

                      TOM GRAVES, Georgia, Chairman

  MARK E. AMODEI, Nevada                     DEBBIE WASSERMAN SCHULTZ, Florida
  E. SCOTT RIGELL, Virginia                  SAM FARR, California
  EVAN H. JENKINS, West Virginia             BETTY McCOLLUM, Minnesota
  STEVEN M. PALAZZO, Mississippi

 
  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                        Elizabeth C. Dawson, Clerk
           Jennifer Panone  and Tim Monahan, Professional Staff

                          ___________________  

                                  PART 2

                   FISCAL YEAR 2017 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS
                         
                         

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        ________________________

           Printed for the use of the Committee on Appropriations

                        ________________________   
                        

                    U.S. GOVERNMENT PUBLISHING OFFICE


 99-994                    WASHINGTON : 2016
                            
                            
                            
                            
                            
                            
 

                      COMMITTEE ON APPROPRIATIONS

                   HAROLD ROGERS, Kentucky, Chairman

RODNEY P. FRELINGHUYSEN, New Jersey  NITA M. LOWEY, New York
ROBERT B. ADERHOLT, Alabama          MARCY KAPTUR, Ohio
KAY GRANGER, Texas                   PETER J. VISCLOSKY, Indiana
MICHAEL K. SIMPSON, Idaho            JOSE E. SERRANO, New York
JOHN ABNEY CULBERSON, Texas          ROSA L. DeLAURO, Connecticut
ANDER CRENSHAW, Florida              DAVID E. PRICE, North Carolina
JOHN R. CARTER, Texas                LUCILLE ROYBAL-ALLARD, California
KEN CALVERT, California              SAM FARR, California
TOM COLE, Oklahoma                   CHAKA FATTAH, Pennsylvania
MARIO DIAZ-BALART, Florida           SANFORD D. BISHOP, Jr., Georgia
CHARLES W. DENT, Pennsylvania        BARBARA LEE, California
TOM GRAVES, Georgia                  MICHAEL M. HONDA, California
KEVIN YODER, Kansas                  BETTY McCOLLUM, Minnesota
STEVE WOMACK, Arkansas               STEVE ISRAEL, New York
JEFF FORTENBERRY, Nebraska           TIM RYAN, Ohio
THOMAS J. ROONEY, Florida            C. A. DUTCH RUPPERSBERGER, 
CHARLES J. FLEISCHMANN, Tennessee    Maryland
JAIME HERRERA BEUTLER, Washington    DEBBIE WASSERMAN SCHULTZ, Florida
DAVID P. JOYCE, Ohio                 HENRY CUELLAR, Texas
DAVID G. VALADAO, California         CHELLIE PINGREE, Maine
ANDY HARRIS, Maryland                MIKE QUIGLEY, Illinois
MARTHA ROBY, Alabama                 DEREK KILMER, Washington
MARK E. AMODEI, Nevada
CHRIS STEWART, Utah
E. SCOTT RIGELL, Virginia
DAVID W. JOLLY, Florida
DAVID YOUNG, Iowa
EVAN H. JENKINS, West Virginia
STEVEN M. PALAZZO, Mississippi

               William E. Smith, Clerk and Staff Director

                                  (ii)
                                  
                                  
                                  
                            C O N T E N T S

                              ----------                              

                               Testimony

                                                                   Page
U.S. Capitol Police..............................................     1

Architect of the Capitol.........................................    37

House of Representatives.........................................    63

Library of Congress..............................................   125

                          Prepared Statements

Government Publishing Office.....................................   187

Government Accountability Office.................................   197

Congressional Budget Office......................................   221

Office of Compliance.............................................   225

Open World Leadership Center.....................................   229

Written Testimony of Other Interested Individuals and 
  Organizations..................................................   239


                   LEGISLATIVE BRANCH APPROPRIATIONS



                                FOR 2017

                              ----------                              

                                            Tuesday, March 1, 2016.

                          U.S. CAPITOL POLICE

                               WITNESSES

KIM C. DINE, CHIEF OF POLICE
MATTHEW R. VERDEROSA, ASSISTANT CHIEF OF POLICE
RICHARD L. BRADDOCK, CHIEF ADMINISTRATIVE OFFICER

                  Opening Statement of Chairman Graves

    Mr. Graves. Welcome, everyone. The subcommittee will come 
to order, and we will begin our hearings on fiscal year 2017's 
budget requests of the various agencies of the legislative 
branch.
    I look forward to continuing our work with all the members 
of the subcommittee, including our ranking member, Debbie 
Wasserman Schultz of Florida, our vice chairman, Mr. Amodei; 
Mr. Rigell of Virginia; Mr. Jenkins of West Virginia; Mr. 
Palazzo of Mississippi, welcome you back; and Mr. Farr of 
California; Ms. McCollum of Minnesota.
    I want to thank each of you for being here and appreciate 
your dedication and attention to the important issues of this 
subcommittee.
    And as everyone of this subcommittee knows, our national 
debt is at the tune of now $19 trillion, and as we all know, 
this is unsustainable and unacceptable. While major reforms to 
the Federal programs outside the jurisdiction of this committee 
are certainly needed, we nonetheless must lead by example, and 
we will.
    The budget that was submitted by the administration for 
this subcommittee to consider, not including the Senate items, 
or under the Architect of the Capitol for the Senate, is $3.6 
billion, which is an increase of 6.8 percent over last year's 
enacted level. So when you include the Senate, the request is 
at $4.7 billion, or an increase of just over 6 percent over 
last year's enacted level.
    Now, our job is going to be to scrutinize the request under 
our jurisdiction, and we will continue to lead by example by 
being efficient, effective, and doing more with less, as we 
have done in the past. I appreciate the hard work done to 
prepare these budget requests, and I look forward to the 
hearings from each of the agencies.
    Now, today, we have with us the United States Capitol 
Police, the Chief of Police--thank you for being here, Mr. 
Dine; Assistant Chief Matthew Verderosa, who will be taking 
over as Chief--we congratulate you--on March 20; and Mr. 
Braddock, the Chief Administrative Officer.
    This will be Chief Dine's last testimony before this 
subcommittee.
    And we are grateful for your service, Chief, in your 
capacity now. I know it is since December 2012, you were 
appointed to serve as the Chief of Police for the United States 
Capitol Police.
    Now, during his tenure with the Capitol Police, he has 
overseen the 57th inaugural event of the President of the 
United States, 4 State of the Union addresses, thousands of 
visits from heads of state, dignitaries, and VIPs, joint 
meetings, summits, events, and demonstrations, over 30 million 
screenings for the Capitol complex in total, and the day-to-day 
operations of running a police department.
    Chief, well done. Thank you. All of us on the subcommittee 
would like to thank you for your hard work and your dedication 
to the safety and the security of the entire Capitol complex, 
and we would also like to thank the officers and the civilians 
of the Capitol Police for their service.
    Their presence has allowed Members and staff to safely 
conduct the people's work and ensure that all visitors can 
safely enjoy this rich history of the Capitol that we all 
endure and love.
    Now, your budget request for fiscal 2017 is $409.6 million. 
This is an increase of just under $35 million, or around 9 
percent, over last year's level. And while we understand your 
critical mission to ensure that our Nation's legislative and 
democratic process of government are conducted without 
disruption, our job, obviously, is to scrutinize this request 
and to make informed funding decisions as we move forward.
    So with that, I would like to conclude my opening remarks 
and ask Ms. Wasserman Schultz, ranking member, if she has 
anything she would like to add, and then certainly recognize 
the ranking member of the full committee afterwards, Mrs. 
Lowey.

         Opening Statement of Ranking Member Wasserman Schultz

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Chief Dine, really I want to echo the chairman's sentiment 
and add to it. Your service has been remarkable. To come into 
an agency that you did not grow up in, so to speak, and take 
command the way you did and be able to steer us through the 
myriad of challenges that a police agency faces every single 
day really reflects incredibly well on your management skills, 
and on the respect that your officers had for you. We were very 
fortunate to be able to have you lead the Capitol Police 
through this last 4 years.
    I can tell you that I personally wish you extremely well 
moving forward. I enjoyed the conversations that we have had 
and always appreciated how you were readily available whenever 
we had questions and gave us really thorough and frank 
responses, because we don't always get those in the political 
process. So I just can't thank you enough for your incredible 
service.
    Assistant Chief Verderosa, I'm looking forward to having 
that leadership continue. You have done a remarkable job. Now 
we will switch to an institutionalist, so to speak, to someone 
who did grow up inside the Capitol Police family, I'm looking 
forward to working with you and having the same kind of 
relationship that I have enjoyed with Chief Dine.
    As we are all aware, the Capitol Police was provided with 
the largest budget increase of any other agency in the fiscal 
year 2016 omnibus; $27 million, or 8 percent above fiscal year 
2015. By comparison, the House was provided with a zero percent 
increase, the Library of Congress, a 1.5 percent increase, and 
the Government Accountability Office, a 1.7 percent increase. 
The budget before us today requests an additional $34.6 
million, or 9.2 percent, in addition to the $27 million just 
provided in December.
    Chief Dine, Assistant Chief Verderosa, we want security, 
but we do not want security to the detriment of everything else 
that makes Congress work, including our staffs. Part of the 
difficulty is the inability for this committee to see a force 
that is adequately preparing for current global threats.
    In fiscal year 2016's request, as part of your $27 million 
increase, a $4 million carveout was fenced off until a plan was 
delivered by the Capitol Police Board. Those funds were 
provided was to prepare for threats after the tragedies in 
Paris and San Bernardino. Before receiving the plan, I expected 
initiatives that were focused on preventing and recovering from 
the type of mass casualty events that we have, unfortunately, 
seen play out across the country and the globe.
    Instead, the plan that we received was to hire more police 
officers and place more magnetometers. That is no different 
than the basic Capitol Police budget and far from the forward-
thinking vision that we need to prepare for our worst-case 
scenarios in an ever-changing world. In addition, 1-year 
infusions are meant to be just that, 1 year. Hiring officers is 
a 30-year financial commitment that grows with inflation each 
and every year.
    Chief Dine, as you prepare to depart, we once again need 
your frank assessment on how the agency is prioritizing its 
resources and if we are being asked to fund a 20th century 
police force as our threats become more 21st century every 
year.
    Just as important as how the decisions are being made 
within the department to prioritize funding, I would like to 
understand the process by which those decisions about preparing 
our force for how forward looking approaches are made. If we 
are having outside forces come in and make decisions for you, 
that is something that I would like to hear about during this 
hearing, and you should expect a healthy exchange from me 
during questioning.
    Thank you, Mr. Chairman. I look forward to their testimony.
    Mr. Graves. Thank you, Ms. Wasserman Schultz.
    And I am delighted to have us with us the ranking member of 
the full committee, Mrs. Lowey.
    Thank you for joining us.

               Opening Statement of Ranking Member Lowey

    Mrs. Lowey. I am delighted to be here, and I thank you very 
up much. And I thank the ranking member. It is a pleasure to be 
with you both today. And I am delighted to join you in 
welcoming the witnesses.
    And thank you so much in advance for your testimony.
    I particularly want to join my colleagues in commending 
Chief Dine on your years of hard work and service. You have 
been instrumental in ensuring the safety of this campus. And as 
I mentioned before, it is a real, real challenge. And we are 
very, very grateful. You will be missed.
    And, Chief Verderosa, I want to congratulate you on your 
appointment as Chief of Police, and we look forward to working 
together.
    Each year, my colleagues, between 3 and 5 million people 
from around the world visit the U.S. Capitol and surrounding 
buildings. The Capitol Police are tasked with protecting these 
sacred halls and the visitors, school groups, advocates, 
Members, and staff who come to the Capitol each day. This 
subcommittee has recognized the changing nature of global 
threats, has provided resources for the Capitol Police to 
prevent and respond to a worst-case scenario event.
    For all those who visit the Capitol, it is imperative that 
funding from the Legislative Branch Subcommittee be used wisely 
to reduce our risk or respond capably during and after any 
incident. Addressing these needs, including enhanced security, 
the cost of necessary repairs to aging buildings and 
infrastructure, preservation of the Library of Congress, among 
others, is imperative for Members of Congress to meet the 
expectations of their constituents.
    During these years of austerity, perhaps some of these 
agencies and initiatives could have been better addressed had 
the majority not spent over $6 million on a partisan political 
Benghazi investigation, 2.3 million defending the Defense of 
Marriage Act, and now hundreds of thousands more for legal 
action against the administration on the Affordable Care and 
Guantanamo Bay.
    Since the elections will be over for the majority of fiscal 
year 2017, I hope we can set aside some of those excessively 
partisan endeavors to adequately invest in the legitimate 
security priorities before this committee.
    So in closing, I want to thank you again, Chief Dine, for 
all your hard work, and I look forward to working with you.
    And, Chief Verderosa, good luck to you. We know the 
enormous task ahead, and we look forward to working together.
    Thank you, Mr. Chairman.
    Mr. Graves. Thank you, Mrs. Lowey.
    And, Chief Dine, now if you would like to give us a 
presentation of your written statement you have already 
submitted. I know that that is being submitted as part of the 
record, but we look forward to hearing from you as you want to 
describe some of your plans looking ahead and your final 
hearing and testimony.

                     Statement of Chief Kim C. Dine

    Chief Dine. Yes, sir. Thank you, Chairman Graves, Ranking 
Member Wasserman Schultz, and members of the committee. I am 
honored to be here today, and I appreciate the opportunity to 
present the United States Capitol Police budget request for 
fiscal year 2017.
    Before I begin, I would like to note that my full 
testimony, as you mentioned, outlining the Department's request 
has been submitted for the record.
    I am joined here today by Assistant Chief Matthew 
Verderosa, our Chief of Operations and soon to be Chief of 
Police, and Mr. Richard Braddock, our Chief Administrative 
Officer, as well as some members of my executive management 
team and our Inspector General, Fay Ropella.
    First, I would like to thank the committee for its 
sustained and unwavering support for the United States Capitol 
Police. I would specifically like to express our appreciation 
to the committee and to the Congress for providing the 
necessary salaries and general expenses funding for fiscal year 
2016 to support our personnel and operations.
    The women and men of the Capitol Police work tirelessly to 
ensure that the legislative process of our government functions 
without disruption or lapses in security or safety 24 hours a 
day, 365 days a year. But none of this would be possible 
without your support and that of the Capitol Police Board.
    The Department's fiscal year 2017 request totals nearly 
$410 million and represents an overall increase of $35 million, 
or 9 percent, over the fiscal year 2016 enacted funding level 
of $375 million.
    The Department's fiscal year 2017 personnel request 
reflects our continuous efforts at all levels of management to 
effectively and prudently manage our existing resources to 
achieve the best possible balance of staff versus overtime and 
to meet mission requirements. We are constantly analyzing our 
workforce to align job functions, assignments, workload, risk 
management, and organizational readiness, along with the ever-
changing assessments and mandatory mission requirements within 
a dynamic environment.
    Our fiscal year 2017 request includes base funding for 
1,823 sworn officers and 373 civilian positions. These are the 
staffing levels funded during fiscal year 2016. In addition, 
the request also includes half-a-year funding for an additional 
72 officers and 51 civilians.
    With the rise of ISIL and continued efforts of Al Qaeda and 
other terrorist organizations to attack public venues, as well 
as increased occurrences of homegrown violent extremists and 
lone wolf-type episodes, we have seen a rise in the number of 
mass casualty events around the world and in the continental 
United States.
    Based on this rise in terrorist events and the tactics 
displayed by the assailants, the United States Capitol Police 
have once again reviewed its operational and tactical posture 
to ensure that the department is taking every measure possible 
to maintain the security of the Capitol complex while allowing 
the legislative process to continue to function in an open 
environment.
    In close coordination with the Capitol Police Board, the 
Department believes that the implementation of security 
measures to better secure and screen within House garages, the 
full implementation of additional screening and prescreening at 
various building access points, and the implementation of 
enhanced screening portals is necessary.
    Before requesting additional personnel, the Department 
looked at its current mission load and worked closely with the 
Capitol Police Board to modify or eliminate mission 
requirements in order to offset new mission requirements. 
Additionally, the Department has reviewed duties currently 
performed by officers that could be civilianized in order to 
repurpose current officers to better meet operational 
requirements. Funding for 48 new civilian positions requested 
will be utilized for this civilianization process, and funding 
for 3 new civilian positions will support the increased 
physical security infrastructure.
    The funding request represents an overall increase of 
approximately 8 percent over fiscal year 2016 salaries enacted 
level, which includes funding for the 2017 Presidential 
Inauguration, natural salary increases, additional staffing 
requirements, and increased overtime costs, since the 
department's current sworn staffing levels do not entirely 
provide the necessary resources to meet all of our mission 
requirements.
    The second area I want to cover in some detail is our 
requested general expenses budget, which includes protective 
travel, hiring, outfitting, and training new sworn personnel, 
supplies and equipment, management systems, nonpersonnel 
Presidential Inauguration support, and other nonpersonnel 
needs. We are requesting $76 million for general expenses, 
which is an increase of $10 million over the fiscal year 2016 
enacted level.
    The increase results from normal increases in operating 
costs, inauguration costs, cost to train, recruit, and outfit 
the new employees previously mentioned, the cost of life-cycle 
key items and routine equipment systems, and the restoration of 
annual levels, reduced in previous fiscal years, to meet 
regular department needs. The request also includes an 
additional requirement to equip a fully functional Alternate 
Command Center.
    In closing, I am very grateful for your time today. As you 
know and as you mentioned, this is the last time I will appear 
before you representing this great organization. I have had the 
distinct pleasure of serving as the Chief of Police through one 
Inauguration, four State of the Union addresses, six Joint 
Meetings of Congress, historical events, the African Summit, 
which included over 50 heads of state at the Capitol, and as 
you noted, over 30 million screenings, over 600 demonstrations, 
the rollout of our new strategic plan, the achievement of the 
Gold Standard accreditation from the Commission on 
Accreditation and Law Enforcement, the implementation of our 
new digital encrypted radio system, the creation of a field 
commander program, the implementation a new field training 
program for new officers, the completion of active shooter 
training for the entire department, a new hiring process for 
recruits which has resulted in over 20,000 applications over 
the last 3 years, the hiring of a labor relations specialist to 
maximize labor-management relations, the hiring of a new chief 
information officer, a new diversity officer, and a new 
communications director, and lastly, the implementation of a 
new communication practice to better communicate with you and 
the greater congressional community.
    All of this has been a possibility because of your support 
and the excellent work by the women and men of the United 
States Capitol Police.
    I would like to make special note that all of this was done 
while keeping the congressional community safe. And so I would 
like to thank the women and men of the USCP for their 
commitment to our mission and their unwavering dedication every 
day to ensuring the safety and security of our Members, staff, 
and many visitors who come to the Capitol to see our great 
democracy in action.
    Thank you for the opportunity to appear before you today, 
and I would be pleased to answer any questions you may have at 
this time.
    [The prepared statement of Chief Dine follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Graves. Thank you, Chief, for your testimony, and also 
you took a moment there to summarize your tenure and experience 
and a lot of the accomplishments you have seen and participated 
in. I really, on the onset, only have one quick question for 
you, and then I will go to Ms. Wasserman Schultz next.

                     FUTURE THREATS AND CHALLENGES

    As you leave and as you are, so to speak, passing the baton 
to your right, what challenges do you foresee that you feel 
comfortable in sharing, that are looking at us in the horizon, 
aside from monetary, budgetary, those kind of things, but more 
just some of the physical threats or challenges you see that we 
should be aware of?
    Chief Dine. Well, thank you, sir. That is a great question. 
I think the challenges we face are somewhat unique to this 
great organization. Police departments across the country face 
all types of challenges in terms of gaining the trust of the 
communities they serve, and that is no different here.
    But as everyone here knows, we are essentially an 
antiterrorist organization. We face asymmetrical threats. We 
face a threat posture now that is much less clear than it has 
been in the past. As is publicly known, a lot of communication 
now is frankly in the dark, so we don't know what we don't 
know. We protect an open campus, it requires people paying 
attention, and it does require a lot of resources.
    We are very much plugged into the intelligence community 
across the country at multiple levels in a number of task 
forces, and every single day we take the temperature of the 
threat posture. We also do that yearly as part of our own 
internal business process to see what type of budget we should 
build around these threats.
    I think the challenges we face center around the fact that 
homegrown violent extremists are on the increase, the number of 
attacks over the years are on the increase. There have been 60 
arrests of United States citizens since March of 2014 and 
August 2015. Since 9/11, there have been 144 terrorist plots; 
85 percent of those have been since 2009.
    Mr. Farr. There are plots on the Capitol?
    Chief Dine. No, across the country. There have been 81 
total arrests, ISIS-related arrests in the United States.
    So we face all of those challenges and the day-to-day 
challenges of keeping everyone here safe in an orderly, open, 
free environment.
    I will say, on a daily basis, and we are very proud of 
this, and this is also something other departments face also, 
we rarely make the news, the fact that every day we protect 
people's rights to be heard when they come here and express 
their first amendment rights. We manage those demonstrations 
with sophistication and communication and through teamwork, so 
you don't hear much about those.
    It does require coordination and sophistication. As you 
know, we work very, very closely with the United States Secret 
Service, the United States Park Police, the FBI, the 
Metropolitan Police Department, pretty much all of the agencies 
in the National Capital Region, as well as departments around 
the country, when we engage in our dignitary protection 
efforts.
    Mr. Graves. Well, thank you. I know that myself and many of 
the members of the subcommittee had the opportunity to visit 
the headquarters and were greatly impressed with the assets, 
the intelligence, the information, all that you are working 
with and coordinating to keep this a safe environment, given 
all the threats you have identified.
    Knowing that we have votes coming up at some point later 
this afternoon, I respect everybody's opportunity to have 
questions here.
    Ms. Wasserman Schultz, let's go to you next, and then we 
will go around the room some.

      LONG-TERM IMPACT OF THE SPENDING PLAN FOR ENHANCED SECURITY

    Ms. Wasserman Schultz. Thank you very much.
    Chief, in my opening statement, I made mention of being 
surprised an additional $4 million was provided in the omnibus. 
Those funds were fenced off specifically to fund approaches to 
keep us safe in the wake of mass casualty attacks in places 
like San Bernadino and Paris, and require committee approval 
before they are used. But, again, as I mentioned, those funds 
are now simply going towards more officers and more 
magnetometers, 48 actually, and those funds are going to be 
used to hire, train, and equip those 48 sworn officers.
    Since the plan came up after your fiscal year 2017 request, 
does your budget need to be adjusted to pay for those officers? 
And much has been made by many Members about the need for us to 
return to regular order in both the appropriations process and 
the process that we are using to move legislation, and that, to 
me, is not representative of regular order by any means, 
especially when we are obligating a lot of money through the 
balance of an officer's career. It is not 1-year money.
    So if you could touch on that. Additionally, I want to ask 
you, as I asked you when we first had a chance to talk at one 
of these hearings, about the Capitol Police Board. Because, if 
you will recall, I asked your opinion of the Capitol Police 
Board and its structure, and you had only been on the job a 
couple of months and had good things to say, including positive 
reviews to the Board, and the direction that they provided.
    So three years later, as you are departing this 
institution, I would like that same assessment. How has the 
governance structure of the Board worked? Has it allowed the 
Chief to function in a way that enables reasonable planning, 
allows the Chief to address appropriate security needs, and be 
held accountable for those decisions?
    Specifically in the fiscal year 2017 request, how much of 
the Capitol Police budget would you estimate is due to 
direction from the Board or the Sergeant versus what your 
department has prioritized?
    Chief Dine. Thank you.
    Ms. Wasserman Schultz. I told you it would be challenging.
    Chief Dine. You did, and you were correct.
    I think the first and third answer go together. It is a 
function of the threats we face, the timing of the threats, the 
timing of things that happened in Paris and San Bernardino, and 
also some longstanding issues within the Capitol complex, such 
as garage security, so that has been sort of----
    Ms. Wasserman Schultz. Have we faced a credible threat 
similar to San Bernardino or any other----
    Chief Dine. Well, the good news is at this time we do not 
have any current credible threat against the United States 
Capitol, although, as you know, there have been some. The 
challenge is we don't know what we don't know. Over the last 
four years we recovered 62 weapons, 60 tasers, 389 knives. 
Those are just some of the day-to-day police activities that 
our officers do either at checkpoints or traffic stops as they 
work to try to keep----

      ROLE OF THE CAPITOL POLICE BOARD IN THE USCP BUDGET PROCESS

    Ms. Wasserman Schultz. How much of your request is due to 
your prioritization as the leader of the police force and your 
fellow officers and direction from the Capitol Police Board or 
the Sergeant?
    Chief Dine. We worked with the Capitol Police Board to 
identify three priorities.
    One was prescreeners, which we believe helps keep the 
Capitol safe and within the perfect world would be the best way 
to deploy staff around the Capitol. Without getting into too 
much detail about our security, but people know we staff our 
posts. In the best possible world, we would have multiple 
prescreeners at multiple doors to see a threat coming and 
engage that threat outside. That was the first priority.
    The second priority was garage screening, and the third 
priority was enhanced portal screening for the chambers. Those 
are done in conjunction with the Capitol Police Board and 
ultimately the Board's direction as we formulate those plans 
together.
    We formulated a strategic approach to address all three of 
those priorities, hence the budget as it was crafted, and the 
challenge, as you noted, is those are new tasks which require 
officers.
    We have made a creative attempt to better utilize our 
manpower, to see what functions we can civilianize, which is 
why the 48 civilians are requested to move officers from our 
Communications Division and our Command Center and some sworn 
from the Training Division and reassign them to other posts to 
be efficient and make the best use of our sworn personnel.
    There have been creative efforts to try to do that and to 
take on these additional tasks.

                        STATE OF USCP READINESS

    Ms. Wasserman Schultz. What is the readiness state of the 
police? we have given you upwards of 8 to 10 percent increases 
with flatlining the other agencies. How many officers is the 
ideal number? We all want to be safe, and we want to keep the 
visitors that join us here safe, but it does seem that there is 
never an ideal number.
    I remember, Mr. Chairman, when I was the chair of this 
subcommittee, and it is a question that I still ask any agency 
head to respond to: there are the ``got to haves'' and the 
``nice to haves.''
    I have seen many, many bells and whistles that are 
available to the Capitol Police, and I could see the value in 
each and every one of those. But when we have just come through 
a recession and there are real needs for the rest this bill, we 
need to make sure that we are funding those real needs and not 
the bells and whistles that could maybe wait so that we can 
fund the overall needs of an agency that is an entire branch of 
our Government.
    I know that is not your job to prioritize, but it is a 
question that is in need of an answer because it is hard to 
know when you are ready.
    Chief Dine. It is a brilliant question, and it faces every 
Chief in the country.
    Ms. Wasserman Schultz. A brilliant question. Thank you very 
much.
    Chief Dine. Well, and I don't think there is a Chief that 
knows, generally speaking, what that perfect number is, and in 
my previous lives, I have had that same conversation. I think 
in some ways it is easier for us because of the functions that 
we face, which are quite often specific.
    We have a number of posts that, for a number of reasons, we 
have to staff. Because of the fact we have so many fixed posts 
and assigned specific duties, it makes, for instance, training 
those officers more of a challenge than it would your 
traditional police department where you literally could take 
maybe half the officers offline and the public might not even 
realize that there are half of the officers working for a 2-
week period or a tour of duty.
    Ms. Wasserman Schultz. Are you in a posture where you will 
just ask for whatever we will give you and you will take 
whatever we will give you because you could always put it to 
good use?
    Chief Dine. No, the----
    Ms. Wasserman Schultz. Or are you actually crafting a 
budget that is representative of what your actual needs are to 
be able to make sure that we can cover the Capitol complex and 
its security needs?
    Chief Dine. Well, first of all, we will always do the best 
we can with the resources that you give us, and we appreciate 
those resources. We feel that Appropriations takes very good 
care of the department and the congressional community. That 
being said, this budget and the budgets that we craft are 
specifically crafted to meet the very specific and focused 
duties that we are being asked to do by the Capitol Police 
Board and our multiple stakeholders.
    There are literally post-by-post reviews, and we scrub 
every assignment and we analyze every post. We want to have 
sufficient number of relief for those officers. We want to be 
able to have a response capability. In fact, we want to be able 
to have multiple response capabilities as we saw a couple of 
years ago when we had simultaneous disruptions in some 
hearings. We can't be equipped to only respond to one 
disruption. We need to be able to respond to multiple 
disruptions.
    Ms. Wasserman Schultz. Mr. Chairman, I yield back. I have 
other questions, but I will reserve them.
    Mr. Graves. Thank you, Chief. And I think from the onset I 
mentioned there would be some scrutiny in questions, and as 
demonstrated with the brilliant questions coming from Ms. 
Wasserman Schultz, with brilliant answers, obviously, from the 
Chief.
    Mr. Amodei has indicated he has no questions at this time, 
but----
    Ms. Wasserman Schultz. My work here is done, Mr. Chairman.

                           USCP RADIO SYSTEM

    Mr. Graves. Mr. Palazzo is next in the queue.
    Mr. Palazzo. Thank you, Mr. Chairman.
    And thank you to our Chief and our Capitol Police. You make 
us feel safe, not just here in D.C. and our staff and our 
families, but also at home, being very responsive to possible 
security situations. I am glad to have you on our side.
    In 2014, I believe you all upgraded to a new interoperable 
radio system after years of delay. Do you care to tell us, is 
it working?
    Chief Dine. Thank you for that question. Yes, sir, I am 
proud to say, because of the work of Mr. Braddock and his 
entire team, that system, the minute we turned it on has worked 
flawlessly. We are extremely proud of the way that system 
works. There is not a day that goes by as I am traveling around 
on the campus or in the city or in the region where I don't 
marvel at the effectiveness of that system.
    Just the other day, we were in a tunnel and there were some 
accidents there. We stopped to deal with that. It works pretty 
much everywhere, but it is built to be continually improved and 
upgraded as necessary, as we need to put things online.
    Thank you for your support for that system. And yes, it is 
working very, very well. We are very proud of it.
    Mr. Graves. Anything else?
    Mr. Palazzo. Well, Mr. Chairman, I do have some questions, 
so if we ever do a more secretive--probably more about the 
operations and the things that we don't see on a daily basis 
that they are probably doing to keep us safe.
    Mr. Graves. Yes. All right.
    Mr. Palazzo. I don't think this will be the setting.
    Mr. Graves. That might be a different setting, yes.
    Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. I hope that after the 
votes we will come back, because this is a half-a-billion-
dollar budget hearing, and we haven't even talked about the 
Architect of the Capitol.
    Mr. Graves. I appreciate you bringing that up. That is the 
plan. That is probably likely after your question. We will see. 
Maybe Mr. Jenkins will have a question, and then we can go 
vote. We will suspend, recess for a moment, and then return.
    Mr. Farr. Well, I would like to echo, Chief Dine and the 
others, your incredible public service.
    Chief Dine. Thank you, sir.
    Mr. Farr. I want to also thank you for allowing the kids to 
sled on the west slope after the Snowmageddon. I think that was 
a great uplift for the Hill, and I appreciate your tolerance in 
that.
    Chief Dine. Thank you.
    Mr. Farr. You just laid out, I mean, to me it seems have 
built an empire since you have been here. And that is a good 
thing. I think people in charge need to build empires. But when 
you talk about an open campus, I would argue that your actions 
make it is less open. The garages are less open because we have 
closed permanent doors in Longworth and Rayburn garages. We 
have closed hallways. We now want to put a magnetometer and 
officers in the garage off of Longworth.
    I am concerned because right now, as we speak, somebody 
just sent me a video--I mean, a picture of the long line 
outside of Longworth. All this week people have been out there, 
and last week in the rain, out to the sidewalk. You haven't 
changed the number of officers in that line, you have two 
magnetometers there, and only one is ever open. The same number 
of officers are on there. And we keep giving you more officers.
    This building is owned by the American public, not by us in 
Congress. They lend us these jobs, and in turn we hire you. But 
our function for all of us here is to make government 
accessible and petitionable and all of those things, and I know 
we have to have all this security. We have to have good 
security. But I am concerned about sort of the mission creep, 
and I want to get into some questions.

            COORDINATION WITH LAW ENFORCEMENT AGENCIES IN DC

    One of them is, and I asked this last year, but I don't 
know if I got an answer about how many law enforcement agencies 
are there, including all the Federal agencies, the Park Service 
Police and the White House, both uniform and un-uniform. How 
many law enforcement agencies are there in the District of 
Columbia?
    Chief Dine. There are about 32.
    Mr. Farr. Thirty-two separate law enforcement.
    Chief Dine. I believe so.
    Mr. Farr. And do you have interoperable agreements with 
them, like the fire department does, on backup responding?
    Chief Dine. Yes. We work very closely with many or most of 
them. We have interoperability with our radio system with many 
of them, and we do support each other. I think as time has 
passed, I was actually, as you may recall, with the DC Police 
Department during 9/11. After that, the departments, frankly, 
began to communicate better, and I think each of us also began 
to, it is sort of a double-edge answer, carve out our role and 
responsibilities.
    Mr. Farr. Well, as I understand, last year, when you were 
asking for the increase, it was for overtime, and the overtime 
was being paid because we had to release officers on these new 
special duties. We have a canine team, we have a chemical team, 
we have a SWAT team, we have all kinds of different teams, and 
officers have to be specially trained for that, and we give 
them overtime. We suggested that, perhaps with mutual aid 
agreements, that these 32 departments together could probably 
respond to a lot of these specialty needs without having to 
have our own in, without having everything in-house.
    I mean, this is the kind of problem the Government has 
everywhere, just needing more and more and more. We are coming 
to the end of the line of that. We are really looking for 
building of more cost-effective collaboratives.
    Chief Dine. We do collaborate during our national security 
special events. There is great cooperation and teamwork among 
all the agencies. I think the challenge we face from a day-to-
day perspective, those functions you just mentioned, those are 
daily tasks that we have to engage in at that time. There are 
layers----
    Mr. Farr. Don't each of those 32 agencies have to do the 
same thing? I mean, doesn't the Metropolitan Police, which 
surrounds us, have all those functions? You have a 4-block 
jurisdiction, they are responsible for everything in that and 
outside.
    Chief Dine. Right. Their role and responsibilities are 
different. Where our role and responsibilities are detecting 
both vehicle-borne explosives and personal-borne explosives, 
the Metropolitan Police Department deals with other issues. The 
challenges we face are separate and distinct in that regard, 
and I know that none of them have the ability to take on those 
functions for us.
    In regard to the Department's overtime, as we often say at 
our budget hearings, we actually have more mission than we have 
people, which is why there is always some----
    Mr. Farr. Well, that is what I am kind of hinting at, that 
maybe some of that mission ought to be more shared and more 
mutually responsive than just stand-alone here.
    Chief Dine. Right.
    Mr. Graves. Mr. Farr, before you go on to your next 
question, I am watching the vote clock behind you.
    And Mr. Jenkins, if he could get in any kind of comment or 
question you have before we recess and come back, the chief and 
his team will still be here, and we will continue if that is OK 
with Mr. Farr.
    Mr. Jenkins.
    Mr. Jenkins. Just like those who are looking forward to 
retirement, they can count the days, the hours, and the 
minutes, we watch as well.
    Chief, thank you for outstanding service. We wish you the 
very best. Thank you for all you have done to keep us safe and 
the public who comes to visit. So thank you for your service.
    Mr. Chairman, I yield back.
    Mr. Graves. OK. Thank you, Mr. Jenkins.
    Well, this committee will stand in recess until we return, 
and we will be back in not too long, I would hope. Maybe 10 or 
15 minutes, Chief.
    Thank you all very much. We stand in recess.
    [Recess.]

                        LONGWORTH MAGNETOMETERS

    Mr. Amodei [presiding]. We are going to call the meeting 
back to order. Thanks, Chief and Assistant Chief and Mr. 
Braddock, for your patience. I understand, Chief, you have 
leave at 2:45.
    So we are going to start with the gentleman from 
California. I think he had some other questions.
    Mr. Farr. Thank you.
    Mr. Amodei. So please proceed.
    Mr. Farr. Thank you very much.
    When you were in the office last Friday, we were talking 
about the new magnetometers that were going to be placed in the 
Longworth Building and the personnel that would be needed for 
that, for passage from the Longworth garage. You indicated that 
you would need no new personnel to staff those magnetometers, 
you would arrange it, it would be budget neutral. Well, I see 
in this budget that you have requested 72 new officers.
    So which is it? Is it budget neutral, no new staff, or 72 
new officers? Is it budget neutral when you are requesting $5.7 
million more? I don't think that those magnetometers and 
officers truly are budget neutral.
    But I am just curious as to where this suggestion 
originated. Was it something that came out of law enforcement 
or was it something that came more out of staff in Congress, 
leadership staff? Who comes and says we need this in light of 
San Bernardino? I am getting a feeling that some of this 
pressure on you is not necessarily originated in law 
enforcement circles.
    Chief Dine. Well, there are probably a couple of answers to 
that. As you know----
    Mr. Farr. You are leaving, so we can say anything.
    Chief Dine. It has been an identified vulnerability for a 
number of years, probably over 10 years. That being said, we 
work very closely with the Board, and as you know, each Board 
member--even though I am a member of the Board, I am a 
nonvoting member--each Board member has their own role and 
responsibilities for their constituents. And that was a 
priority of the House as well.
    We work with the Board as a whole to craft--in addition to 
our own force development process, every year we go through our 
own internal process to identify threats and vulnerabilities to 
build our budget.
    Mr. Farr. Well, I appreciate that. I think what 
Congresswoman Wasserman Schultz was talking about is the 
Board's role.
    I think, Mr. Chairman, one of the things that we need to do 
in Congress, and everything we do in government, is to be aware 
of mission creep. We gave no COLA to our employees last year. 
The budget by the Architect of the Capitol, I think requests 
about a--I forget the percentage increase, but it is a 
substantial percentage increase. And the Capitol Police, it is 
a 9, almost 10 percent increase in the budget request.
    We all need to be focused on safety and morale. Poor morale 
could lead to crazy gun shooters. We can secure ourselves 
beyond necessity, at the same time leave ourselves vulnerable 
to disgruntled people. So I do think you always have to balance 
that.
    I just wonder whether these new checkpoints--particularly 
setting up a magnetometer in the Longworth garage access point 
when staff have already been cleared to enter--is necessary. 
Drivers to go in with your their own car, you have to show your 
own ID, nobody can be in that car without an ID, officers look 
in your trunk, you park your car, you get out, then you got to 
do it all over again. That person is our staff.
    In fact, you are going to hear, because I just, being late 
to this, I rushed my staff through the security downstairs 
because people said when you are in a hurry and your chief of 
staff is with you, you can do that. And the officer called me 
out, wanted to know my name, took it down, I gave it to him, 
and he said he was going to talk to you about it. So you can 
say: Well, that Farr, he is just a troublemaker anyway.
    I think that by doing this we are questioning the loyalty 
of our own staff. And, you know, you are only going to put this 
magnetometer in one garage, in one place. It is not going to be 
done in the Rayburn garage. So why not wait until it can be 
done in all garages? Instead you should have officers opening 
up building doors, so when the public is trying to get into 
Longworth, they can get in, and probably Cannon as well, and 
Rayburn.
    If we need more officers for the door, that is fine, but do 
we need more officers to check our staff? I am not with it.

                CONCEALED WEAPONS IN THE CAPITOL COMPLEX

    Let me just ask you one last question and then I am 
finished. When we were talking, I went back and looked at the 
stated priorities of the department, and your stated priority 
is to provide comprehensive internal assessment, assessment 
capability to identify and validate threats.
    Is it true that there are Members of Congress who carry 
concealed weapons on campus and even in the House Chamber?
    Chief Dine. I don't know that for a fact.
    Mr. Farr. Do they carry concealed weapons, some Members?
    Chief Dine. I believe some Members have concealed carry 
permits.
    Mr. Farr. You don't know about those?
    Chief Dine. But as how they carry them or where they and 
when they carry them, I am not aware of it.
    Mr. Farr. Can they get into their offices with those 
weapons?
    Chief Dine. They are allowed to have them in their offices. 
How they get them there would be a subject of questioning. They 
are allowed to have them in their offices.
    Mr. Farr. Do you know every Member who has one?
    Chief Dine. No, sir.
    Mr. Farr. Isn't that part of your role under your 
responsibility to know?
    Chief Dine. That would be interesting information to have.
    Mr. Farr. Well, interesting? It is essential. Here we are 
trying to create a really secured campus, and we don't even 
know how many Members are essentially violating the rules. the 
law allows them to have a concealed weapon, I guess, but it is 
not necessary to bring that weapon into the House and certainly 
not on the floor.
    Chief Dine. They may in fact be comporting with the rules, 
and this is probably one place where the Sergeant at Arms--the 
role of the Sergeant at Arms does come into play since they are 
the direct liaison to the Members.
    Mr. Farr. Would carrying a weapon onto the House floor be 
committing an illegal act?
    Chief Dine. That would be something that the Sergeant at 
Arms and Capitol Police would not want to have happen.
    Mr. Farr. Maybe with the Sergeant here tomorrow we can get 
to the bottom of this.
    Thank you.
    Mr. Amodei. Thank you.
    Anything from the gentleman from Mississippi?
    Mr. Palazzo. I have already asked my question.
    Mr. Amodei. Thank you.
    Mr. Palazzo. And he answered, so thank you.
    Mr. Amodei. The gentlelady from Florida.
    Ms. Wasserman Schultz. Thank you very much.

                  HOUSE GARAGES AND ENHANCED SECURITY

    Chief, I want to just go more specifically into the issue 
of the House garages and the security screenings that are in 
the process of being implemented, or at least getting ready to 
be implemented.
    Why has a proposed security in the House garages suddenly 
gone through an implementation process that did not go through 
the normal appropriations process, was never discussed by any 
elected Member of Congress, hasn't gone through regular order, 
or allowed us to prioritize how much that would cost compared 
to competing needs? I'm concerned this new proposal is causing 
shifts of officers and causing what I would view as a shoddy, 
disorderly process. This process ultimately will likely not 
result in our being able to make sure that the security goals 
are achieved. We should rather be going through an orderly 
process that allows for people who were elected to make funding 
decisions, and who were selected for this committee to do that; 
to do our jobs.
    So I have several questions in that category. Will the 
screening of staff at garages mean that the screening of staff 
and visitors at the Cannon and Rayburn tunnels are going to be 
eliminated? For example, the Senate screens all the staff, so 
they have closed out the screening in other places because they 
have one sort of central point. I know they screen a lot less 
people than we do.
    Chief Dine. Yes, ma'am. Ultimately, yes. The answer to that 
is long term, yes.
    Ms. Wasserman Schultz. OK. I thought that would be your 
answer. We are only in the process of trying to do this in 
Longworth. So, how are you going to achieve that if we are not 
doing the same in Rayburn, which has, perhaps 80 doors inside 
the garage? Let me preface this by saying I am absolutely 100 
percent behind necessary security measures. I mean, we 
absolutely should have these in place. But we have a process 
that exists for us to follow as appropriators, and it has not 
been followed.
    Now you have to come up with how many officers you are 
having to shift midstream that you haven't planned for. Are you 
going to leave them wherever they were uncovered, or have those 
slots covered by something else or someone else?
    Why would we partially implement a garage security project? 
It seems to me like you should do it all or you don't do any of 
it until you can do all of it. What is the total startup cost 
to fully implement garage security? How much is it going to 
cost us in staffing each year after it is up and running? 
Because it is not just a cost now. That is the first one, for 
starters.
    Chief Dine. I think the timing is a function of a couple 
things, what has happened recently across the country and as 
well as working with the Board. And as I mentioned----
    Ms. Wasserman Schultz. But what is the urgency? I mean, do 
we have--you mentioned earlier we don't have a credible threat. 
Of course, anything could happen at any time and you always 
have to be ready. But we are 15 years past 9/11, and we have 
been functioning, and it has been a concern the whole time, but 
we have been functioning without that security at the garages. 
What is the ``all-fire emergency'' that it has to be done 
outside the appropriations process, outside regular order? And 
essentially, where did this order, where did this come from?
    Chief Dine. As we work with the Board in terms of our own 
internal force development process and threat assessment, we 
also work with the individual Board members and their desires, 
as really they are stakeholders. This initiative clearly was a 
desire on the part of the House Sergeant at Arms to move this 
forward as----
    Ms. Wasserman Schultz. I just met with the House Sergeant 
at Arms in my office, and without discussing our conversation, 
that is not my understanding. Where did this come from?
    Chief Dine. Well, we work with the Capitol Police Board and 
the various Sergeant at Arms----
    Ms. Wasserman Schultz. I know you are just doing your job 
and you have to follow the direction that you are given.
    But I would like someone, Mr. Chairman--I realize you are 
the acting chairman for the moment--but I absolutely would like 
an explanation as to why we have gone outside regular order. No 
one on the Capitol Police Board is elected to anything. And we 
have an Appropriations Committee for a reason, and we are the 
ones that spend time, over many years, prioritizing what our 
needs are.
    Perhaps we would decide that this is an urgent need that 
has to be done immediately. Then we could prioritize where we 
shift funds, and decide what is going to be at the top of the 
priority list and what we reduce down lower, if this is an all-
fire emergency. But it has not been an all-fire emergency for 
15 years, so I don't know how it is now.
    I need a more specific explanation, which I am happy to 
further explore with the Sergeant when he is here tomorrow.
    Mr. Chairman, this is no way to run a rodeo, and this might 
prove to be a need that is more urgent than it has been up to 
now. However, that is our responsibility as appropriators to 
make that decision, not for it to be imposed upon us and 
dropped in, in the middle of what we all committed to and that 
I heard the leadership pledge fealty to when the current 
Speaker took his office, which is to return to regular order.
    And this is anything but that, and it is a very significant 
amount of money, millions upon millions of dollars committed 
many years in the future. I mean, I think you have asked for 
something like 57 officers to cover this, and they serve until 
they are 57. That is 57 officers who will serve until 57. That 
is a very large commitment to never actually have gone through 
the planning process that we have here.
    So, Mr. Chairman, I would like you, if you could relay to 
Chairman Graves that I would like to have my questions 
submitted for the record, and whoever is responsible for 
beginning the process of the House garage security project 
outside of the Appropriations Committee should be asked and 
required to answer our questions.
    Mr. Amodei. OK.
    Ms. Wasserman Schultz. My questions.
    Mr. Amodei. Thank you.
    Chief, I want to thank you for your response to requests to 
me, which kind of ties into the ranking member's stuff in terms 
of--and I know you are getting a little loose in the saddle or 
whatever. But I do appreciate the fact that having got a C or 
above in civics, I think I understand something about 
oversight.
    So perhaps--we have had some luck with this in the future, 
subject to the chairman's approval--if we ask you to put 
together a briefing, with you and the Sergeant at Arms, we will 
have a chance to ask him tomorrow, to schedule that, as opposed 
to a letter, which in my experience, nobody else's, tends to 
take about a quarter of most congressional Members' terms 
around here. Not your agency specifically, that we can put 
together a briefing perhaps and get the Sergeant at Arms in the 
room, you guys in the room to basically have that discussion.
    If that is appropriate, we will forward that on to the 
chairman and see if we can't get that done before you go join 
the ``older I get the better I was'' club.
    Ms. Wasserman Schultz. Mr. Amodei, are you suggesting that 
we come back together so that we can have that conversation? We 
can even do it in closed session.
    Mr. Amodei. Well, my thought is we will just set a meeting, 
and the Members that are interested in it attend the meeting 
and can have the discussion.
    Ms. Wasserman Schultz. Right. I think that would be 
extremely helpful.
    Mr. Amodei. Great.
    Chief, we kept you for 3 minutes, but over the course of 
how many years, that is probably about as good as it gets, so 
thank you for your service.
    And thank you, folks.
    Chief Dine. Thank you all for your support.
    Mr. Amodei. As always, members can submit questions in 
writing. We will work on that briefing.
    Mr. Farr. Can you answer that question on the budget 
neutral, whether it is budget neutral or not?
    Chief Dine. Right now it is, but long term, clearly it is 
not because we are taking on new tasks. Right now, in the short 
term, as the ranking member said, we are moving folks around 
and we are trying to make the best use of the resources we have 
to implement this as asked. Long term, obviously--
    Mr. Farr. So you don't need the 72 officers for this.
    Chief Dine. No. We will long term, because we are taking on 
new tasks. We will, absolutely.
    Mr. Amodei. OK. Thank you.
    This session of the meeting is adjourned.
    [Questions submitted for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    

                                            Tuesday, March 1, 2016.

                        ARCHITECT OF THE CAPITOL

                                WITNESS

HON. STEPHEN T. AYERS, ARCHITECT OF THE CAPITOL
    Mr. Amodei [presiding]. We are going to restart this 
section of the meeting devoted to hearing the budget request of 
the Architect of the Capitol.
    Mr. Ayers, welcome.
    Mr. Ayers. Thank you.
    Mr. Amodei. I have got some stuff that talks about your 
statistics here, which is very good, and I will keep that in 
case I ever need to know that. But I don't think I am going 
to--since we are a little bit late, I will go ahead and forego 
that and defer to the ranking member from Florida.
    Ms. Wasserman Schultz, your opening remarks, please.
    Ms. Wasserman Schultz. Thank you very much, Mr. Chairman.
    And welcome back to the committee, Mr. Ayers. It is always 
a pleasure to work with you, and I enjoyed the opportunity to 
briefly review your budget request, which is $694.3 million and 
13.3 percent above the enacted.
    I am pleased to see that the budget includes some funds for 
the Historic Buildings Trust Fund, and I appreciate the 
chairman keeping the Historic Buildings Trust Fund alive last 
year while separately funding the Cannon project. Funding 
Cannon's restoration as its own line item was the right thing 
to do, really important for us to use the Historic Preservation 
Trust Fund to bank resources for future restoration and 
renewal. We have got hundreds of millions of dollars in front 
of us, and so one of the things I am concerned about, as I 
mentioned to you, is, while our oversight is important and we 
want to make sure that we can have as much transparency as 
possible--that is why the separation was important--this year's 
budget request for the Historic Buildings Trust Fund is only 
$10 million. I am concerned that we are not banking enough 
funds to save for future large-scale projects. Cannon is $800 
million by itself, and we know Longworth and Rayburn will be 
even more.
    So, in 10 years, if we keep going at this rate, we would 
only save $100 million for future projects. The Cannon House 
Building alone, as I said, will cost close to $800 million. I 
am certain the next building to need major renovations won't be 
any less. So saving $10 million a year for the next big project 
is not enough, in my opinion. And I would ask my colleagues to 
consider that as we go through the process of crafting this 
budget.
    As we consider a budget that reflects our interests, our 
values and our needs, we have to start with responsible 
planning within our own walls.
    In addition to the Cannon project, the Architect is in the 
home stretch of restoring the Capitol dome. Congratulations on 
that. This subcommittee funded the $126 million needed to 
restore the dome and the rotunda to its former glory. I am 
looking forward to seeing it before the inauguration next year, 
and that project is the most visible example around the world 
of our roles as stewards of these great institutions that make 
up Congress.
    And I look forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Amodei. Thank you.
    Mr. Ayers, we have your opening statement. If you want to 
summarize that or remove that from the record and start from 
scratch, the option is yours.

           Summary Statement of the Architect of the Capitol

    Mr. Ayers. Thank you, Mr. Chairman and Ranking Member 
Wasserman Schultz and members of the subcommittee, I am 
delighted to be here today to present the Architect of the 
Capitol's 2017 budget request.
    2016 promises to be a banner year for the Architect of the 
Capitol as several important projects will be coming to a 
close. Most visibly, before the 2017 Presidential Inauguration, 
restoration work on the Capitol dome and rotunda will be 
complete. On the dome, the installation of cupola windows is 
complete. The reinstallation of large ornaments is in progress 
and, in fact, scheduled to be completed today. The cast iron 
repairs continue through the mid and lower section of the dome. 
Inside the rotunda, coffers have been stripped of old paint, 
and new painting is about to get underway. Here on the House 
side, work is progressing well on the initial phase of the 
Cannon House Office Building renewal.

                   STEWARDSHIP THROUGH PRIORITIZATION

    Updating and improving our facilities through fiscal 
responsibility continues to be the most important priority for 
us. For example, the redesign of the Bartholdi Park project, as 
you see under construction now, resulted in a cost reduction of 
nearly $4 million. Over the course of the past 10 years, the 
installation of over $90 million in energy conservation 
measures in our buildings using energy savings performance 
contracts significantly aided in our ability to achieve the 
legislated 30 percent reduction in our energy intensity in our 
buildings. In fact, we exceeded that with a 30.9 percent 
reduction. This exceeds the target set by the Energy 
Independence and Security Act and is something that we are 
very, very proud of.
    These projects are all success stories but are also 
compelling examples of the need for sustained, significant 
investment in our deteriorating infrastructure. Continuing to 
defer our needs results in critical damage that compounds and 
becomes costlier to repair. Safety and state of good repair 
upgrades are the centerpiece of our 2017 request of $694 
million. We continue to address an enormous backlog today 
estimated at $1.49 billion.

                        FISCAL YEAR 2017 REQUEST

    Our 2017 budget request builds on our successes, seeking 
$165 million for major capital projects deemed urgent or 
immediate. These include replacing obsolete chillers at the 
Capitol Power Plant to ensure safe and efficient air 
distribution throughout 23 buildings across the Capitol campus; 
eliminating water infiltration that has deteriorated facades of 
most of our buildings on Capitol Hill, in particular, the 
Rayburn House Office Building garage is in need of a 
comprehensive project to address concrete delamination and, if 
not funded, will jeopardize the structure of the garage; 
repairing leaks, corrosion, and aging piping systems in the 
Capitol Building threaten to affect the operation of this 
building; improving the life safety of the Library of Congress 
buildings through the second phase of the Thomas Jefferson 
Building North Exit Stair B project, which will increase the 
capacity to quickly evacuate that building in an emergency.
    Failure to address these and several other critical 
projects in the short-term will exacerbate the aging process 
and facilitate new deterioration and failures, ultimately 
increasing the cost of these repairs.
    I believe that working together we can remain a strong and 
healthy symbol for our Nation's growth and prosperity, and I 
thank you for the opportunity today, and I would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Ayers follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
                            HOUSE PAGE DORM

    Mr. Amodei. Thank you.
    The gentlelady from Florida.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Ayers, I have a few questions.
    I will try to flip through them, but you might want to 
bounce back and forth to other members, Mr. Chairman.
    I wanted to ask you about the page dorm because if you 
remember, in fiscal year 2014, I included language in our bill 
to make sure the committee is notified before any work is done 
to the page dorm or there is any discussion or proposal to use 
it for a different purpose. Has there been any work done to the 
building since the page program was eliminated, and have there 
been any discussions about the future of that building that you 
are aware of?
    Mr. Ayers. I am not aware that we have done any work to 
that building other than routine maintenance to keep it from 
deteriorating. So we have done no new construction work there. 
However we have received a request from the Speaker's Office to 
begin reviewing that building for potential future uses.
    Ms. Wasserman Schultz. Are there specific future uses? Have 
they been specific?
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. And what are those?
    Mr. Ayers. They have asked us to look at a potential 
childcare center in that space.
    Ms. Wasserman Schultz. OK. So the language in the fiscal 
year 2014 bill directed you to make sure that you made the 
committee aware before you made any changes. So I would very 
much appreciate if we make sure that those discussions don't go 
any further without including the subcommittee in those 
discussions.
    Mr. Ayers. Of course.
    Ms. Wasserman Schultz. There is nothing wrong with child 
care, but the purpose of it was to make sure that we could make 
a decision, as I keep raising, that is ours to make when it 
comes to prioritizing how funds are spent and the appropriate 
use for the facilities that are on the Capitol, that are in the 
Capitol complex.
    Also, just to give Members something to chew on, while that 
is an interesting proposal--and as a mother of young children, 
I certainly understand the need for expanded childcare 
opportunities. But any decision that we make that permanently 
alters the ability for us to maintain that building as a dorm, 
as a dormitory, forever precludes us from reinstituting the 
page program if future House leadership ever chooses to do 
that.
    I, for one, lament that we do not have a House page program 
any longer. There are generations of young people who were 
inspired by their participation in that program to engage in 
public service. I remain convinced that we could go back and 
try to reform that program and make sure that if it were 
reinstituted, we could keep young people engaged.
    Mr. Farr. The Senate still has one.

                    RAYBURN SMALL ARMS FIRING RANGE

    Ms. Wasserman Schultz. Yes, they do. They do, and they have 
their own dorm. Ours is closed.
    OK. The Rayburn firing range, as you know, is closed. It is 
a brand-new firing range that the AOC was responsible for 
managing the construction. How long was it open before the 
problems of ricocheting bullets were identified, and what is 
the timeline for reopening it? What happened with the 
contractor that the design of the firing range resulted in 
ricocheting bullets? I mean, it is sort of baffling how this 
could occur.
    Mr. Ayers. The range was open for approximately 2 weeks, 
and we were notified by the police officers' union of a number 
of safety concerns with the range. The Capitol Police, I think 
appropriately, shut it down while we could investigate and 
understand what all of those issues were. We don't know today 
whether it is an operational issue, meaning a usage issue, or 
whether it is a design flaw. We are in the middle of working 
through all of that right now.
    We have a really good team of people from my organization 
and Chief Dine's organization that are working together with 
the designers, the contractor, and the manufacturer of the 
range to understand whether or not there are any design flaws. 
Second, the police are working apace to determine what are the 
operational requirements that they need to have in place, and 
they are bringing the range manufacturer on board as a 
consultant to them to help them design systems and procedures 
to safely and effectively use this range.
    Ms. Wasserman Schultz. What is the timetable for 
determining why this happened and what the cause was and/or 
reopening the range?
    Mr. Ayers. I think my best guess----
    Ms. Wasserman Schultz. Are there any additional costs that 
we are going to be incurring as a result of the process that 
they have to go through now?
    Mr. Ayers.My best guess is, perhaps 2 months as we work 
through possible causes. There are 15 issues on the table. 
Three or four are closed out already, and as we work through 
all of those, it is going to take a little time to do that.
    We don't know whether there is a design problem which would 
result in us having to reconstruct something, so we don't know 
when the range will reopen or if there will be a future 
expense. There are, I think, expenses that we are incurring 
today and Capitol Police are incurring today. For example, 
bringing in a third-party consultant to help us understand 
whether there is a design issue or not. The police bringing in 
a team to help them write their operation and maintenance 
procedures, the cleaning procedures, and the procedures for 
effectively using this range will cost a small amount of money 
out of their budget.
    Ms. Wasserman Schultz. Is there a provision in the 
contracts that you had with the vendors that designed it, or 
built it for reimbursement of costs incurred from design flaws 
or errors that are determined ultimately to be the fault of the 
contractor, rather than the fault of the Architect of the 
Capitol's personnel?
    Mr. Ayers. There are those provisions in our contracts, and 
we have used them before, not on this contract, obviously, but 
on other contracts, and if we find there are errors, or 
omissions, or negligence, we will take the necessary action to 
recover our costs and protect the government's interest.
    Ms. Wasserman Schultz. How much would you say you plan to 
spend to address the problems thus far, and what do you 
anticipate it costing going forward?
    Mr. Ayers. I don't think we have actually spent any money 
yet, but if we hire a third-party consultant, we could spend 
$20,000, perhaps, to have someone work with us for a few weeks 
to help us work through all of the design details and determine 
whether they are produced correctly.
    Ms. Wasserman Schultz. But, potentially, we could have to 
have a reconstruction or a redesign that could cost far more 
than that?
    Mr. Ayers. That could be the case. We really don't know, 
but it could be the case.
    Ms. Wasserman Schultz. And the range remains closed. Was 
anyone hurt during the use of the range from the ricocheting 
bullets?
    Mr. Ayers. No, and these, of course, are fragments of 
bullets, and they bounce back off of the end wall and tumble 
across the floor.

                           U.S. CAPITOL DOME

    Ms. Wasserman Schultz. I mentioned in my testimony the 
Capitol dome project being in the home stretch, and I wanted to 
ask you whether you expect that it is going to come in at the 
full $126 million expenditure, or do you anticipate there being 
any funds that will remain at the end of the project that could 
possibly be used for other projects.
    Mr. Ayers. That is a very distinct possibility. You know, 
the dome is in three phases. On the outer phase, we are 87 or 
88 percent complete. We are really in the home stretch there. 
We will see the top portion of the scaffolding coming down this 
month and then 63 or 64 percent complete on the interstitial 
space and about 50 percent complete with the rotunda work. And, 
given all of that, we still have ample contingency amounts 
available to us should we need them. But we are so far along in 
the job, that it is very unlikely that we will need to use 
those. I think there is a very distinct possibility that we 
will have money left over.
    Ms. Wasserman Schultz. About how much, do you think?
    Mr. Ayers. I couldn't wage a guess on that.
    Ms. Wasserman Schultz. If you could let us know, that would 
be helpful.
    When the scaffolding is removed, what will people notice? 
What is the biggest differences that people will notice about 
the dome, the most visible change after the restoration?
    Mr. Ayers. It is interesting that, on the outside, as you 
take off 13 layers of lead-based paint, the dome and the detail 
really come alive, and I have been able to see it up close, and 
I am really excited about taking the scaffold down and 
unveiling it for the country, if not the world, to see. I think 
there is going to be a renewed sense of beauty and a renewed 
sense of the incredible detail that went into building this 
dome.
    Similarly, I think, on the inside, you will see a slight 
change in color of the rotunda. The rotunda has been painted 
four times since it was first constructed in the 1860s. And the 
color scheme that we have chosen goes back to the 1906 and 1946 
era. The current colors that you see are from the early 1970s 
and really don't have a historical precedent to them. So there 
will be a slight change in color.
    Ms. Wasserman Schultz. Mr. Chairman, just one more 
question, and then I will just be done instead of coming back 
to me, if you don't mind.
    Mr. Amodei. OK.

                          WORKING CAPITAL FUND

    Ms. Wasserman Schultz. We talked about the working capital 
fund in my office earlier, but can you explain what the 
Architect's personnel believe is wrong with the way that we 
fund your construction division through separate appropriations 
that we provide? And can you address the real issue of reduced 
oversight on our part if we allow you to move some of those 
separate appropriations to a working capital fund?
    Mr. Ayers. Sure, I would be happy to. Thank you. We have a 
200-person construction team that does work throughout the 
Capitol complex on a daily basis. And the way they are paid are 
from our appropriation in the Senate, our appropriation in the 
Library, our appropriation in the House. There are no 
appropriated dollars to pay their salaries. They are reimbursed 
from projects they undertake across the Capitol campus. And so 
it is an accounting nightmare for us to be able to track all of 
that. And a great example of that is: You take a plumber that 
is doing work today in the Senate Office Buildings installing a 
wet pipe sprinkler system, and that employee is earning annual 
leave and benefits and sick leave. And he will take those, 
perhaps, 2 or 3 months from now, while he is working on another 
job. Well, appropriations law will require us to find a way to 
take that leave entitlement and pay it from the job he was 
working on when he earned it. That is an accounting nightmare 
for us to do that, one that is recognized by our inspector 
general. Our inspector general recognized our inability to 
effectively and consistently do that through the long term and 
suggested that a working capital fund would be a much better 
way to run that operation. And we agree.
    And, of course, any controls that are necessary to ensure 
that the Congress has oversight and that we are transparent 
about that and that we are not spending money in any way that 
hasn't been authorized by this committee I think we would 
certainly welcome that.
    Ms. Wasserman Schultz. Well, it would be important if we 
allow that shift to make sure that we put a mechanism in place 
that ensures that we can maintain the same oversight we have 
been able to under the current way you do it.
    Thank you, Mr. Chairman. I yield back and thank you for 
your indulgence.
    Mr. Amodei. Yes, ma'am. The gentleman from California.

                             ENERGY SAVINGS

    Mr. Farr. Thank you very much, Mr. Chairman.
    How much money do you save from these energy investments, 
on the bill, on just the, you know, the monthly bill?
    Mr. Ayers. The three energy savings and performance 
contracts that we installed--one in the House, one in the 
Senate, and one in the Capitol--was an investment of about $90 
million of private money, and we pay back those vendors through 
the energy savings. The money that we are saving, we are 
actually paying back to those contractors because of that 
investment. And so today we have saved over the course of these 
projects, $7- or $8 million. The rest of that has been used to 
pay back the vendors for their investment.
    Mr. Farr. Did that investment include changing the light 
fixtures?
    Mr. Ayers. It did include changing the light fixtures.
    Mr. Farr. Are these LED lights? They don't look like it.
    Mr. Ayers. Carlos, do you know if these are LED lights?
    Mr. Elias. Yes, they are.
    Mr. Ayers. They are LED lights.

                         DATA CENTER RELOCATION

    Mr. Farr. I need some. Great. We are moving the House data 
center to southwestern Virginia. Right?
    Mr. Ayers. Correct, yes, we are.
    Mr. Farr. And you are very involved in that.
    Mr. Ayers. Actually, I am involved tangentially in terms of 
my agency has a small data center, and a number of years ago we 
colocated our data center into the House's data center instead 
of running our own. So if the House moves their data center, to 
us, it makes sense that we continue to stick with the House and 
go wherever the House goes.
    Mr. Farr. Yes, I presume that the decision to move sort of 
out of the Washington area was a strategic one, plus probably 
cost-effective for real estate purposes.
    Our leg branch services, the Library of Congress, wants to 
colocate their data center with ours. It makes a lot of sense. 
They are part of this family. Are you involved in that? I mean, 
we ought to be doing this. Who is accountable for--they say 
they have gotten no response from anybody and are suggesting 
they have got a huge cost involved. And it certainly makes 
sense if we are going to build one data center for ourselves, 
that we ought to include our family members in that design.
    Mr. Ayers. So the data center----
    Mr. Farr. Is that your responsibility?
    Mr. Ayers. It is not. It is with the House Chief 
Administrative Officer.
    Mr. Farr. Do we have jurisdiction for that office?
    Ms. Panone. I think so.
    Mr. Farr. So the Chief Administrative Officer is in charge 
of the building for the House itself, for our data center. 
Right? And yours, because you are colocated with them, or you 
are part of that?
    Mr. Ayers. The data center in Virginia, that we are 
speaking of, they are responsible for that.
    Mr. Farr. And they are also responsible then if the Library 
of Congress wants to be there? Are they responsible for that 
capital outlay?
    Mr. Ayers. I think they are negotiating the real estate 
deal and the lease deal, and so they would be the ones that 
would expand those negotiations to include others. I am not 
involved in that.
    Mr. Farr. How about for the design of the center? Wouldn't 
they use your resources? I mean, you are the Architect.
    Mr. Ayers. No. We are not involved in the design of that 
data center.
    Mr. Farr. Well, Mr. Chairman, I hope that we can use--I 
mean, the dream here, the idea is, if we are going to move one, 
let's move all, and let's all be in one place.
    Ms. Wasserman Schultz. Well, the Library is planning on 
piggybacking on this as well.
    Mr. Farr. They want to piggyback, but they are not 
getting--as I understand it--they are not getting any help or 
invitation to piggyback.
    Ms. Wasserman Schultz. I am sorry, Mr. Chairman, if I 
might. My understanding is that it is in their budget request, 
and also, in last year's bill, we put language that allowed 
them to review, and study piggybacking onto this data center.
    Mr. Farr. OK. So everybody agrees it makes sense.
    Ms. Wasserman Schultz. I just met with the acting 
Librarian, and he expressed a strong desire for it to happen, 
and they need it.
    Mr. Farr. Yes.
    Ms. Wasserman Schultz. He didn't suggest to me--you should 
check with them, Mr. Chairman--but he didn't suggest to me that 
there was a challenge.
    Mr. Farr. From what I understood is that they have really 
gotten no feedback, no response from wanting to be a partner in 
this.
    Ms. Wasserman Schultz. From the House?
    Mr. Farr. Maybe they don't know that it is the Chief 
Administrative Officer, thinking it was your--I have the 
question to be asked of you. So they might think that--they 
have been asking you. And, obviously, you don't have the 
responsibility for it.
    Mr. Ayers. No, I don't.
    Mr. Farr. All right. Well, we will check on it.
    Ms. Wasserman Schultz. Yes, the information that I got a 
few hours ago from the acting Librarian is that they are 
working with House Administration, the Chief Administrative 
Officer in the House, and----
    Mr. Farr. Well, let's check on that.
    Ms. Wasserman Schultz. They will be with us tomorrow, so we 
can ask them then.

                       ADVICE AND LESSONS LEARNED

    Mr. Farr. OK. Fine. Thank you. This is probably my last 
question. I am leaving, and I am always asking this of 
everybody because I am always curious as to lessons learned. Is 
there anything in your career that you want to--lessons learned 
or advice you would give to us about the role of the Architect? 
I mean, it is an old role. It has been around for a long time.
    Mr. Ayers. It has been around since 1793, when George 
Washington first laid the cornerstone. And, you know, I think 
one of the challenges that all building managers face is 
managing a massive backlog of work that needs to be done, and 
you can't quite get it funded. I think this committee made such 
an important strategic decision in establishing the House 
Historic Buildings Revitalization Trust Fund that will really 
enable us to make the best, the proper investments in our 
buildings over the course of generations to come. And, so, I 
know, as I look back, that is one of the things that is so 
important for me as the steward of the buildings that you all 
use on a daily basis.
    Mr. Farr. Did that trust fund receive private contributions 
as well?
    Mr. Ayers. I don't believe it can receive private 
contributions. But it can receive contributions from a wide 
variety of efforts, not just appropriated dollars or sweeping 
up unused dollars from the Architect. It has the ability to 
receive other dollars as well, but not private dollars.
    Mr. Farr. Well, like foundation dollars, or no outside--it 
has to be public money?
    Mr. Ayers. Correct.
    Mr. Farr. Why is that?
    Mr. Ayers. As I look back on my nearly 20 years here, we 
have had a number of opportunities to receive public money for 
a variety of projects. And I think it is not something that the 
Congress--I don't want to speak on behalf of the Congress, but 
my personal view of the situation is that it is not something 
that the Congress is eager to enter into agreements like that, 
for fear that there is perhaps some influence or quid pro quo 
of someone donating dollars. And the Congress, in my personal 
experience, has always wanted to fund projects themselves.
    Mr. Farr. I am looking at the Washington Monument right 
now, which was restored with private money.
    Mr. Ayers. It was.
    Mr. Farr. And Members enjoy the President series at the 
Library of Congress, paid for by a private individual. I think 
it is time that we revisit that. Families or foundations may 
want to contribute. I think there has been a call for why the 
private sector doesn't do more to support all of these 
incredible public assets, as they do in the national parks, as 
they do in our communities and libraries and so on, schools. 
Why not also allow them to contribute privately to this fund, 
which is so necessary to preserve the history of the political 
history of America?
    Mr. Ayers. We did accept some very generous donations when 
we constructed the Capitol Visitor Center. And we did accept 
some very limited funds when we constructed the National Garden 
at--west of the United States Botanic Garden. So there has been 
some very limited use of that in the past. And there is perhaps 
opportunity to expand that.
    Mr. Farr. Perhaps that could be some report language just 
to explore it.
    Mr. Amodei. I would imagine that the devil would be in the 
details: Who do you contribute to? How is it insulated from 
your concerns?
    Mr. Farr. Firewalls.

                             CANNON RENEWAL

    Mr. Amodei. Thank you.
    Mr. Ayers, just a couple of things. Where are we at--and 
these are just kind of housekeeping. So Cannon costs, is that 
on track? Guaranteed maximum price, all of those fancy things 
that you guys are up on, but there is no warning signs on the 
horizon as far as Cannon costs go.
    Mr. Ayers. That is correct. In fact, just the opposite. We 
have recently completed our third cost and schedule risk 
analysis, and both of those say we have a greater than 80 
percent chance of achieving this project for the cost that we 
have identified and the schedule that we have identified, 
number one.
    Number two, we have also received the guaranteed maximum 
price from our contractor for all four phases coming up. And we 
are comfortable with that number. And it is within our cost 
estimate, and it is our desire to notify you in the coming 
weeks and move out and award that guaranteed maximum price 
contract in the middle of April.
    We have no warning signs, only signs of success at this 
point.
    Mr. Amodei. Good. Congratulations. How about the disruption 
stuff? When are the musical chairs going to start? Is that 
still scheduled based on the original information put out? And 
I know you could go on a long time. Please don't. Although you 
are not in Cannon anymore. Are you?
    Mr. Ayers. She is in Longworth.
    Mr. Amodei. And I know you are not in Cannon. Just supposed 
to be junior Republicans that are in Cannon.
    Ms. Wasserman Schultz. That is what you do when you are in 
the know about what is coming.
    Mr. Amodei. Only if you plan to sleep there. So how is that 
going?
    Mr. Ayers. We have moved over 400 people to the O'Neill 
Building already, and as we approach phase 1, it is in December 
that we need to move Members out of the west wing in Cannon and 
move them to Longworth and Rayburn. And we are on track to do 
that.
    Mr. Amodei. OK.
    Mr. Ayers. Prior to December, we will be moving non-Member 
spaces, so late summer, and early fall, we will clean up a few 
other committees that are still in that space, and we don't see 
anything holding us back from emptying out a wing of that 
building and being able to turn it over to our contractor in 
January.
    Mr. Amodei. Does that have anything to do with why you 
decided to leave, Mr. Farr? You are just like: I am not hanging 
around for that program.
    I do want to let the ranking member know that I had some 
questions about future use of the page dorm. Took a tour of it 
a while back, shared those with the Architect's staff and House 
Administration's staff, and they did a phenomenal job of saying 
in a very professional way that those are some of the dumbest 
ideas that they have ever heard. And so I am not going to speak 
for the Architect's Office, but when they get back to you with 
their report, please have your heavy coat on and stuff like 
that, even if it is a warm day for: Well, have you thought 
about this, that, or the other sort of thing? And it has 
basically just kept me minding my own business, even though I 
walk by it every day.
    But I completely agree with you in terms of the oversight 
stuff. It would be nice to know beforehand and have some 
meaningful input into that process.
    I wanted to thank you publicly for the access that we have 
had to your divisions, whatever they are called, in terms of 
going through the various shops. You know, with your folks in 
the paint department, the folks downstairs in the metal stuff, 
the wood shop people and all of that have been absolutely 
great. You have been very responsive, which means that we don't 
have a lot to do in these formal settings.
    I still do want to talk to the yard guys, though, because I 
am a frustrated farmer that lives on a 90-by-110 subdivision 
lot. So don't take that seriously. But anyhow, I want to thank 
you for that in terms the transparency and our requests have 
all been timely.

                          CAPITOL POWER PLANT

    Finally, the last thing I have is just an update on how 
things are going at the Power Plant. We have boiler things. We 
have chiller things. What is the quick and dirty on that?
    Mr. Ayers. So, on the boiler side, obviously, we need to 
replace a boiler now, so we have entered into a contract with 
Washington Gas to provide a cogeneration system that makes 
electricity and steam at the same time. That contract is 
signed, and in the fall of 2018, that will be fully operational 
and part of our inventory.
    Our work on the chilled water side is moving out very, very 
well on the refrigeration plant revitalization project, and we 
have the last of the chillers that we think we are going to 
need in our 2017 budget request.
    Mr. Amodei. OK. Good. Well, we have got to keep those 
pansies in Longworth cool in the summer. So that is good.
    I don't have anything else. Is there anything else of the 
other committee members? Then this meeting is adjourned.
    The committee will get back together tomorrow at 1:30 to 
hear from House Administration and Leadership. Thank you.
    [Questions submitted for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    

                                          Wednesday, March 2, 2016.

                        HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. KAREN L. HAAS, CLERK
HON. PAUL D. IRVING, SERGEANT AT ARMS
WILL PLASTER, CHIEF ADMINISTRATIVE OFFICER

                  Opening Statement of Chairman Graves

    Mr. Graves. I will go ahead and call the subcommittee to 
order. Welcome, everyone.
    Today we will begin our hearings on the Fiscal Year 2017 
Budget Request of the House of Representatives. I would like to 
welcome the officers of the House.
    Ms. Haas, thank you for joining us, Clerk of the House.
    Sergeant Paul Irving, Sergeant at Arms, thank you.
    And, our new Chief Administrative Officer, Mr. Plaster. 
Welcome. Congratulations to you on your new assignment. I look 
forward to working with you.
    Also in attendance we have Mr. Kerry Kircher, the General 
Counsel; Ms. Strokoff, who is Legislative Counsel; and Mr. 
Seep, who is Law Revision Counsel. I also understand that we 
have Ms. Theresa Grafenstine, the Inspector General, with us as 
well.
    So thank you, everyone, for joining us.
    This 2017 budget request for the House agencies is just 
under $1.2 billion, which is a little over $6 million more than 
last year's enacted amount. Much of the work that each of you 
and your offices do on a daily basis in an ideal world is 
certainly invisible. And if everything goes well, your work 
stays behind the scenes and generally unnoticed.
    However, we wanted you to know that this committee 
appreciates you and all the work you do for the House; and to 
keep the House secure, virtually and physically, and to ensure 
that we have all the proper tools. So we certainly recognize 
all the work you do for our work environment and keeping the 
environment safe.
    So, I look forward to working with each of you as we have 
certainly some challenges facing us in this fiscal year 2017. 
As we had a discussion yesterday, obviously there will be 
questions, and our job is to review the request and scrutinize 
where possible and save taxpayer dollars where possible. But I 
know that you all have presented something that is responsible, 
that accomplishes the objectives you have in mind. The 
committee will certainly take that into consideration.
    And at this point, I would like to welcome our ranking 
member, Ms. Wasserman Schultz, for any remarks she might have.

         Opening Statement of Ranking Member Wasserman Schultz

    Ms. Wasserman Schultz. Thank you very much, Mr. Chairman.
    I join the chairman in welcoming our witnesses.
    Mr. Plaster, welcome to your first hearing in 
Appropriations. I know you are new to the job and that you are 
acting in a so-called interim capacity. But you have been of 
service to the House of Representatives for many years. We are 
looking forward to working with you and looking forward to your 
insights.
    The budget before us, unfortunately, provides no increases 
for the Members' Representational Allowance, our office 
budgets, committees, or leadership offices, with some increases 
for the officers of the House and for hearing room renovations.
    Mr. Chairman, I consider the House, as you know, the staff, 
operations, and its buildings, our primary ward. We are 
responsible. As unsexy as our portion of the budget for the 
United States of America is, it is a critical component because 
we are helping to make sure that the greatest democracy the 
world has ever known is able to function.
    It is in both parties' interest to ensure that the House 
functions at the highest levels so that we can attract and 
retain the best and brightest talent. We have heard countless 
discussions here where we lose to other agencies because we 
continue to be less and less competitive when it comes to the 
salaries that we pay, the benefits that we provide, and our 
ability to make sure that we can provide the best and brightest 
with enough attraction and reason to come and work for us 
instead of other competing potential opportunities.
    We have to leave this institution better than we found it, 
and that is our challenge and our responsibility as members of 
this subcommittee. I don't believe that we will accomplish such 
a laudable goal by providing the Capitol Police, for example, 
with an 8 percent budget increase while providing the House 
with a zero percent increase, which we did in the Omnibus that 
we just passed in December 2015. We cannot carry out our 
constitutional duties with those types of priorities.
    Assuming that our allocation remains the same in fiscal 
year 2017, I certainly hope that we can realign our priorities.
    I know I might be starting to sound like a broken record. I 
don't mind that. I am going to continue to advocate for our 
staff and for the institution.
    If you recall last year, Mr. Chairman, I reported that in 
2013, legislative assistants who work for the House of 
Representatives were being paid $6,000 less than they were in 
2009, when adjusted for inflation. And just in case we forgot 
how difficult it is to survive when you are just starting out 
in your career, I will point out that a median-priced one 
bedroom apartment in the DC area costs $2,000 a month. After 
paying for rent and eating in the House cafeterias, we are 
lucky that we can keep anyone on staff.
    Now, let me highlight something in the Fiscal Year 2016 
Omnibus that we were able to accomplish. With the help of the 
Clerk of the House, the committee funded $7 million in the 
Financial Services bill to increase the capacity of the 
National Archives and Records Administration to store archives 
of the House and Senate. The National Archives and Records 
Administration, which is funded in the Financial Services bill, 
is running out of space to store Legislative Branch archives. 
So that is not in our bill. NARA is, though, of great benefit 
to future Congresses, to historians and researchers, who will 
use this information to judge us when we are long gone.
    That was phase one, and I hope we can impress upon our 
colleagues on that subcommittee to keep this project going. And 
I would recommend to any member who has not been over to the 
Archives and been in the Legislative Vault, it is a sight to 
behold. And, you have an opportunity to have that.
    Mr. Chairman, you may even want to bring us on a field 
trip, as you have been wont to do, to the Archives, because the 
things that we will have an opportunity to see will, I think, 
motivate all members of this subcommittee to impress upon our 
Financial Services colleagues how important that is.
    But before I conclude, Mr. Chairman, I do want to voice my 
frustration at how our committee continues to be circumvented 
outside of the regular order, which I know is a top priority of 
Speaker Ryan.. Decisions about funding are being decided in 
ways that cannot be brought to light through congressional 
oversight because they are being made outside of our ability to 
oversee them.
    We have spent from Federal appropriations more than $6 
million combined on the Benghazi Select Committee and on the 
Energy and Commerce Committee for the Select Investigative 
Committee on Planned Parenthood. The House budget presented to 
us to consider does not reflect the increased budget 
requirements for these partisan lawsuits, the Benghazi 
Committee, or the additional needs for the Planned Parenthood 
panel under Energy and Commerce.
    To add insult to injury, the Benghazi Committee, unlike 
every other committee of the House, and a committee that has 
existed for years now, does not receive its own appropriation 
and does not even receive funds through the Committee Funding 
Resolution that is voted on by the whole House. In other words, 
we have unelected people deciding how much money that committee 
gets.
    To add insult to injury, unlike every other committee of 
the House, it does not receive its own appropriation and it 
does not receive funds through our Committee Funding 
Resolution.
    We may never agree whether these activities are worthwhile, 
but for the sake of regular order, a refrain I have heard is 
being important to your side of the aisle over and over and 
over again, we must insist that these items be funded through 
the regular appropriations process and authorization processes. 
Not only do we not have oversight of how millions are being 
siphoned for political games, but this is threatening Congress' 
real work.
    These new political committees and panels come at the 
expense of our standing committees that have enacted very 
little authorizing legislation on important issues of our day. 
We can only surmise that if we funded those committees for 
their real policy work, that this Congress could actually begin 
working for the American people again and pass--shudder the 
thought--bipartisan legislation.
    Mr. Chairman, if for no other reason than for transparency 
for the American people, this subcommittee should insist on 
regular order and require the justifications to provide budget 
details on these committees and on the partisan lawsuits that 
we have, unfortunately, been funding at every turn. We know 
that they can provide that. They have gone on long enough.
    I have heard the General Counsel answer questions of mine, 
Mr. Chairman, in the past, where he said, we just don't know 
what the costs might ultimately be. Well, neither does the 
Department of Justice. But they are required to provide us with 
a budget justification and anticipate what their needs are, 
even when it comes to the uncertainty of their lawsuits.
    So within our limited scope, I look forward to hearing the 
testimony of the witnesses that are here today, and I yield 
back.

                     House Officers Opening Remarks

    Mr. Graves. Thank you, Ms. Wasserman Schultz.
    And now we will take an opportunity to hear from the 
officers. I would love to start with Ms. Haas first, ladies 
first, and then Mr. Irving and then Mr. Plaster. If each of you 
could just go in that order, and then we can have questions 
after that. Members will likely direct questions to one or all 
of you at some point.
    My understanding is our calendar, as long as yours allows 
for it, goes to about 2:30, that is what we were expecting 
here, no later than that, then we will have Library of Congress 
after that. So that sort of gives the Members a lay of the land 
here.
    So, Ms. Haas, thanks for joining us, and look forward to 
your comments. If you can briefly share what you have already 
prepared and know that your written statement will be submitted 
for the record.

                  Opening Remarks--Clerk of the House

    Ms. Haas. Thank you. Chairman Graves, Ranking Member 
Wasserman Schultz, and members of the subcommittee, I 
appreciate the opportunity to testify before you regarding the 
operations of the Office of the Clerk and our fiscal year 2017 
budget request. Thank you for providing the resources and 
guidance to allow us to continue to carry out our duties and 
responsibilities for the legislative and institutional 
operations of the House.
    There is much to report since our last hearing. We have 
made great progress on our Web site redesign and expect a beta 
version to be available in January of 2017. The Web site will 
focus on our legislative responsibilities and have a robust 
search function that will include more advanced vote searches.
    We have completed updates to the docs.house.gov. Web site, 
the financial disclosure electronic filing Web site, and an 
internal requisitions program. The requisitions project will 
streamline internal functions and make it easier to reconcile 
GPO billing.
    We continue our efforts to make legislative information 
more accessible. I am proud to report that, working with our 
partners, the Bulk Data Task Force released bill status 
information in bulk form. This was a significant step forward 
and well received by those that use our data regularly.
    Outreach to Members and committees regarding their records 
continues to be a priority. With the support of this 
subcommittee, we were able to make progress on the storage 
challenges we face for House records.
    Working with the House Historian and his team, we have seen 
tremendous growth in the use of the history.house.gov Web site. 
This unique historical content is available to the public and 
used frequently by teachers and researchers.
    The robust hearing schedules have increased the demands on 
our Official Reporters. I expect that these services and others 
provided by our office will continue to see growing demand.
    With our professional staff and the support of this 
subcommittee, we are ready to meet those challenges.
    Thank you for your time, and I am happy to answer any 
questions.
    [The prepared statement of Ms. Haas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Graves. Thank you.
    Mr. Irving, thank you.

                Opening Remarks--House Sergeant at Arms

    Mr. Irving. Good afternoon, Mr. Chairman, Ms. Wasserman 
Schultz, and members of the committee. I appreciate the 
opportunity to appear before you to present the Sergeant at 
Arms Budget Request for Fiscal Year 2017.
    Before beginning, I would like to say that it is truly an 
honor to have an opportunity to serve this institution, and I 
look forward to continuing to work with you and the other 
members of the committee as the year progresses. My full 
testimony, which I have submitted for the record, has my entire 
fiscal year 2017 budget.
    As you know, the Office of the Sergeant at Arms provides 
security, safety, and protocol services to Members, committees, 
and the staff who serve them. To accomplish our mission, we 
have an extremely dedicated team whose diverse strengths 
provide the highest level of professionalism and expertise.
    Employees of the Sergeant at Arms have supported numerous 
special events over the past year, including the unprecedented 
visit of His Holiness Pope Francis of the Holy See, the annual 
State of the Union address by the President, off-site retreats, 
visits by heads of state, honorary ceremonies, concerts, and 
other events throughout the year. Planning is currently under 
way for the inauguration of the 45th President of the United 
States.
    As Sergeant at Arms, I receive real-time intelligence 
information providing an overview of campus wide, local, 
national, international events which may have an impact on the 
safety and security of the House of Representatives. The 
information is gleaned from a myriad of sources through a 
partnership with Federal, State, and local intelligence and law 
enforcement agencies.
    However, as a point of note, despite our best intelligence 
assessments, prudent security protocols are always our best 
measure to keep Members, staff, and visitors safe. All of these 
resources and efforts in intelligence gathering assist me in 
evaluating security countermeasures in the context of new and 
emerging threats. And, I want to assure this committee that I 
carefully evaluate and balance the security protocols and 
security posture of the House with the effects that any new 
security protocol may have on the business process of the 
institution.
    In partnership with the Capitol Police, my office maintains 
a strong, effective outreach program with Member offices 
regarding district office security. We offer guidance on best 
practices, providing information on how to obtain a thorough 
security review and how to coordinate security surveys when 
requested. We will continue to provide this essential service 
to offices, remaining mindful of the need to provide cost-
effective recommendations and solutions.
    Two of our most successful initiatives to date have been 
the implementation of mail hoods in the district offices and 
our Law Enforcement Coordinator program.
    In closing, I would like to thank the committee once again 
for the opportunity to appear before you. I want to assure you 
of my deep commitment, and that of my entire office, to 
providing the highest quality services for the House of 
Representatives, while maintaining the safest and most secure 
environment possible. We remain vigilant and focused on 
security preparedness, striving to adhere to the strict level 
of fiscal accountability entrusted to us by the House of 
Representatives.
    As always, I will keep the committee informed of my 
activities, and will be happy to answer any questions you may 
have.
    [The prepared statement of Mr. Irving follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Graves. Thank you, Mr. Irving. Thank you for your 
service too.
    Mr. Irving. Thank you.

             Opening Remarks--Chief Administrative Officer

    Mr. Graves. Mr. Plaster, welcome. Your first hearing before 
us in your new capacity.
    Mr. Plaster. Thank you, Mr. Chairman.
    Mr. Graves. And we certainly congratulate you and welcome 
you.
    Mr. Plaster. Thank you. Mr. Chairman, Ranking Member 
Wasserman Schultz, members of the committee, I appreciate the 
opportunity to appear before you today on behalf of the entire 
team of women and men who serve the House in the Office of the 
Chief Administrative Officer.
    This is the first time I have appeared before the 
committee, and I am quite honored to be here today alongside 
the Clerk and the Sergeant at Arms. While I have only been in 
this position for 2 months, I have served the House for over 25 
years, and I can safely observe that the close working 
relationship that the House officers have fostered in recent 
years, among themselves and with the other service providers in 
the House, has been vital in ensuring that the institution is 
supported effectively and efficiently.
    I look forward to collaborating with the committee on this 
budget request in order to tackle the many issues and 
challenges facing us in fiscal year 2017, particularly our work 
to improve the delivery of services to the House community and 
our comprehensive program to protect House IT systems from a 
persistent and evolving threat.
    The Fiscal Year 2017 Budget Request for the Office of the 
Chief Administrative Officer is $117,165,000, which is flat 
with the Consolidated Appropriations Act of 2016. This request 
will support the CAO priorities in information technology and 
improving CAO core services, such as financial management, 
acquisitions management, logistics, human resources, and other 
support services.
    Within these core services are activities supporting 
cybersecurity, payroll and benefits, mail delivery, food 
services, broadcasting, human capital, furniture and 
furnishings.
    Although our request is flat, the CAO does anticipate 
increases for fiscal year 2017 in personnel, annual 
maintenance, and licensing, Housewide subscriptions, and key 
projects, such as knowledge management. However, we also 
anticipate savings due to decreases in contractor support, 
modular furniture installations because of the Cannon Renewal 
Project, and project initiatives that will be transitioning 
from implementation to operational status.
    We are confident that by utilizing available funds 
efficiently, and working in concert with our House partners, we 
will be able to meet and exceed the expectations of House 
Members and staff.
    Again, I appreciate the opportunity to be here today, and 
look forward to addressing your questions.
    [The prepared statement of Mr. Plaster follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Mr. Graves. Thank you very much.
    I know each of the members of the committee have done their 
diligence and read through each of your proposals and 
recommendations from the budget requests. I want to start off 
today, I am going to yield my time to Mr. Rigell, who is a 
great advocate of good government and has done an amazing job 
on the Appropriations Committee. We were sad to see him 
announce that he wasn't going to run again this year.
    Mr. Rigell. That is quite an introduction, Mr. Chairman. 
Thank you.
    Mr. Graves. You have been a great member of the committee 
and we appreciate you.
    Mr. Rigell. I appreciate that.

                          Remarks--Mr. Rigell

    Mr. Rigell. First, I am a student of management, and I have 
been so impressed by the House leadership and management on the 
support side since I have gotten here. And, so I appreciate the 
good work that you do for the American people.
    Let me say that there is not a whole lot of common ground 
in this institution, unfortunately, but the comments that the 
ranking member made, I think that she has made a good point 
there. You know, I feel like in some ways at the House we have 
kind of flogged ourselves on the back of cutting our own 
budget, which I think is a principle of leadership by example I 
very much respect and try to integrate into my own life. In the 
administration there wasn't any commensurate sacrifice there. 
That troubled me.
    But as I see the young people who work in our offices, and 
how they do struggle, and the distances some of them are 
driving to get away from the high cost of living here, that I 
think this needs to be looked at again, and it is part of 
maybe, ideally, a comprehensive fiscal solution.

                       ELECTRONIC VOTING MACHINES

    But there was just one question, Mr. Chairman, I had, that 
I would like to direct to Ms. Haas, Office of the Clerk.
    You had mentioned in your testimony that there are some 
challenges with the voting machines, the cards themselves, 
things like this. And, I had not experienced any trouble 
whatsoever. I am not saying they don't need attention, but what 
are you experiencing that causes you to want to address that?
    Ms. Haas. Sure. Well, the one challenge that we ran across 
this particular Congress was on the voting cards. The cards are 
old technology. They haven't been updated in the last 15 years. 
So it was difficult to get those cards. They no longer make 
those, so we had them specially made.
    Mr. Rigell. I see. I see.
    Ms. Haas. So the voting system itself, we have been going 
through a multiyear upgrade of the system. So the next part of 
that upgrade includes the voting stations, the cards, and then 
the wiring under the floor. All of the wiring needs to be 
upgraded.
    Mr. Rigell. I see.
    Ms. Haas. It has not been done in quite a long time.
    The stations themselves, another thing that we are looking 
towards updating, is in the most recent election we had two 
candidates that ran that were visually impaired. Our current 
system doesn't allow for visually impaired, doesn't assist them 
in any way. So we are looking at adding Braille type to the new 
stations.
    Mr. Rigell. I applaud that.
    Mr. Chairman, my questions are quite simple today, and that 
is it. And, I thank you for the opportunity and yield back.
    Mr. Graves. Thank you, Mr. Rigell.
    Ms. Wasserman Schultz.

                          CAPITOL POLICE BOARD

    Ms. Wasserman Schultz. Thank you very much.
    Sergeant, I would like to start with you. Good afternoon. I 
have asked you and the Chief over the years about the 
appropriate layout and management structure for the Capitol 
Police Board, on which you sit.
    For others that are not aware, the Chief, as I mentioned 
yesterday, is not a full member of the Capitol Police Board. He 
or she is only an ex officio member. And that setup really 
cripples our ability to conduct oversight. We can't question 
the Senate Sergeant. The Senate can't question our Sergeant. So 
the Chief is left to answer for decisions that, frankly, were 
set in motion by the Board, yet we don't have consistent 
oversight over those decisions because we can't ask everyone 
making them questions about them.
    Now, I know the Senate appropriators and the authorizers 
have asked GAO to update a review of the Capitol Police Board, 
and that is ongoing. I support that.

                 STRUCTURE OF THE CAPITOL POLICE BOARD

    But I would like to ask you, does the Board in its current 
iteration and management structure remain useful? Should there 
be changes to the way it makes decisions and its oversight 
responsibilities? And how would you address my concern that 
Congress really doesn't have enough ability to conduct 
oversight over the Board's decisions? Because we can't do that 
with the entire Board.
    I have other questions. For example, like, how much of the 
Capitol Police budget would you estimate is due to the 
directions from the Board or from the Sergeant versus what the 
Capitol Police believes are priorities? And then I want to ask 
you also about the garage security initiative.
    So if you could address the management structure first with 
the Board's role?
    Mr. Irving. Of course, Congresswoman. The management 
structure as it currently exists, as you know, as House 
Sergeant at Arms I am very responsive to Members of the House, 
leadership, and my committees of jurisdiction. When there is a 
concern, I raise that, obviously, before the Board, if there is 
a House concern. The Senate Sergeant at Arms does the same. 
When he receives an issue from his leadership or his committees 
of jurisdiction or his Membership, he will raise that to the 
Capitol Police.
    Many times the issues are in synch, we have the same 
issues. Sometimes not. Each Chamber has its own, as you know, 
set of unique circumstances. We work very closely together and 
with the Chief. The Chief, we consider him a full partner.
    Ex officio, there is a historical aspect to that. The 
Capitol Police Board hires the Chief, and I believe that is one 
reason why, for that matter, may be ex officio.

       THE HOUSE SERGEANT AT ARMS VS. THE SENATE SERGEANT AT ARMS

    Ms. Wasserman Schultz. Let me give you an example of what I 
am talking about.
    Mr. Irving. Yes.
    Ms. Wasserman Schultz. I appreciate that the Sergeants each 
go to one another when there is concern from the other side. 
But we have had conversations outside of this setting when you 
and the Senate Sergeant disagreed on the appropriate response 
to a security concern.
    Mr. Irving. Yes.
    Ms. Wasserman Schultz. They made a different decision than 
you chose to when it came to an evacuation issue.
    Mr. Irving. It was the lockdown during the Navy Yard.
    Ms. Wasserman Schultz. Right, that lockdown issue.
    Mr. Irving. Yes.
    Ms. Wasserman Schultz. So if that was something that this 
subcommittee chose to review, I could only talk to you about 
it, to the Chief, and maybe the Architect of the Capitol, who, 
by the way, also sits on the Police Board, which most people 
don't realize. I don't have the ability, if there was a 
difference of opinion, to hold the Senate Sergeant accountable.
    Mr. Irving. I will say that later this month the Capitol 
Police Board will be meeting with the committees of 
jurisdiction on both sides, House and Senate, authorizers and 
appropriators. This is something, actually, that we have been 
discussing for some time to increase the transparency.

                     CAPITOL POLICE BOARD OVERSIGHT

    Ms. Wasserman Schultz. So this subcommittee is going to be 
meeting with the Capitol Police Board along with the House 
Administration?
    Mr. Irving. Yes. There is an invitation, I believe for the 
16th of this month, but if not, forthcoming. We have discussed 
this issue of transparency, and we think it is important for 
our oversight committees on both sides to hear what the Capitol 
Police Board has to say, listen to how we make our decisions, 
talk about some of our agenda items.

                   REFORMING THE CAPITOL POLICE BOARD

    Ms. Wasserman Schultz. My specific question is, do you 
think there needs to be reform to the way the Capitol Police 
Board functions and makes decisions in order for us to ensure 
that we don't have to rely on you being willing to sit down 
with us in a meeting?
    Mr. Irving. I don't think so. I believe that I, as I report 
to your committee, to the appropriators, to the authorizing 
committees, to leadership, I believe that I receive clear 
direction and oversight, and I carry that to the Board. I also 
make recommendations to you, to leadership, to authorizing 
committees, to Members on my best view on our security posture.
    But at the end of the day, it is a combination of working 
within the business process of the institution and those 
security parameters that I would recommend, and as you know, 
all the other factors that go into it, our fiscal resources and 
what have you.
    There is that same dynamic on the Senate side. And we do 
our best to let the Chief of the Capitol Police be the Chief, 
and run the department. And, as we get together as a Board, 
talk broad policy oversight issues, strategic plan, the future 
of the department, and those sorts of things.
    So, I think the Board's structure is small, it is nimble, 
with both Sergeants at Arms, the Architect, and the Chief. We 
can get together pretty quickly on the fly and make some pretty 
quick decisions. But I am always available to interact, 
obviously, with our committees of jurisdiction and leadership 
if there is anything that is concerning to you that I must 
bring before the Board.
    Ms. Wasserman Schultz. I look forward to the GAO 
recommendations, but I remain concerned.

                       GARAGE SECURITY INITIATIVE

    I want to ask you about the garage security initiative.
    Mr. Irving. OK.
    Ms. Wasserman Schultz. The Chief was clear yesterday in my 
questions of him that he was directed to initiate the garage 
security project by you as the Sergeant at Arms and by the 
Board, and you as a Board member. He did not deny that it is a 
vulnerability that we are only doing it in one part of the 
garage. And he was not able to explain why we needed to bypass 
the appropriations process, as we were able to previously put 
it through prior to this year.
    My question is, Mr. Irving, why wasn't this project 
justified and explained as part of the budget justifications in 
previous years? Why did funding need to be added and moved 
around during the year after we held hearings and allowed all 
Members to vote on the Legislative Branch appropriations bill 
in the House?
    The Chief was clear that the direction to do this project 
in what I see as a potentially shoddy and haphazard manner, was 
outside of the regular order. Again, the strength of our 
security is reliant upon its weakest link. We are not securing 
all the garages. So if I am a terrorist, I am going to go to 
the garage that is not secure.
    Can you explain why this had to be done outside of the 
regular order? The Chief, in answer to my question, said there 
were no specific credible threats that were pending or that we 
were concerned about. So what pressure did you have to do this 
project without full funding and in the middle of the 
appropriations process?
    Mr. Irving. OK. Let me see if I can address your concern.
    Over the last number of years, I have received some degree 
of funding for the initiative from this committee. And, I 
cannot thank you enough for your support in beginning to move 
the process forward, because we have identified the House 
garages as a vulnerability, one of our big vulnerabilities.
    So we did receive funding in fiscal year 2014--to begin to 
implement the initiative, which would start with the 
infrastructure. It was a combination of infrastructure money 
for the Architect of the Capitol to run conduit, wiring, and 
such to our doors so we would be able to control the doors from 
the garages into the House office buildings. And there was also 
some funding provided for security-related equipment for the 
doors, locking mechanisms and such.

                NEED FOR THE GARAGE SECURITY INITIATIVE

    So as we were at the point in time whereas that phase one 
was nearing completion, we were looking at world events. We had 
a particularly tough year 2015 relative to terrorist hits. We 
have had, based on world events, intelligence, we felt----
    Ms. Wasserman Schultz. Elsewhere in the country.
    Mr. Irving. Elsewhere in the country, correct. We felt it 
was important to move forward on the initiative as quickly as 
possible.
    Ms. Wasserman Schultz. Who is ``we''?
    Mr. Irving. I would say the Capitol Police Board. The 
Capitol Police Board.
    The fact that we had the infrastructure in place and the 
Capitol Police had surplus, had equipment, magnetometers, x 
rays. The missing piece, frankly, was the manpower piece, the 
FTE piece. In working with the Chief, we realized that we could 
rearrange some internal posting and find some efficiencies, 
some short-term efficiencies, to begin to move forward with the 
initiative.
    Ms. Wasserman Schultz. So the Capitol Police Board on its 
own initiated a mid-appropriations cycle addition to this 
project without any credible threat or indication that there 
was anything that required us to move outside the 
appropriations process even though that is how we were 
proceeding prior to this fiscal year?
    Mr. Irving. I will say that I take responsibility for any 
action that is taken, decision that is taken----
    Ms. Wasserman Schultz. I know you take responsibility. I am 
asking if it was your and the Capitol Police Board's initiative 
to take this initiative outside the appropriations process even 
though there is no credible threat, there is no emergency, and 
we were proceeding in an orderly way?
    Mr. Irving. I will say that the fact that we had reached 
the stage in the garage security initiative that allowed us to 
do some initial screening, even though it is not the full 
screening that you alluded to, but it is incremental----
    Ms. Wasserman Schultz. Did you feel that you were not going 
to be able to accomplish what you needed to by going through 
regular order in the appropriations process that we are in the 
middle of right now, which is a matter of a couple of weeks' 
difference?
    Mr. Irving. No, I felt that we could find some efficiencies 
to get the process underway. The garages have been a tremendous 
vulnerability for us. I understand that we did not have 
intelligence that was--any real-time intelligence. But 
nonetheless----
    Ms. Wasserman Schultz. Sergeant who directed you to 
initiate this project in this way?
    Mr. Irving. I have to tell you that I take responsibility.
    Ms. Wasserman Schultz. I know you take responsibility. That 
is not my question.
    Mr. Irving. It was a Board decision.
    Ms. Wasserman Schultz. Only a Board decision? No one else 
was involved?
    Mr. Irving. I work with staff, with leadership, with the 
committees of jurisdiction, both authorizers and appropriators.
    Ms. Wasserman Schultz. Who directed you to initiate this 
project outside of regular order?
    Mr. Irving. I have to take responsibility for that, 
Congresswoman. I can't tell you----
    Ms. Wasserman Schultz. So you initiated it on your own 
because in your analysis you decided, without any outside 
influence or pressure, that this was necessary and so essential 
that we remove it from the regular order process.
    Mr. Irving. I did not view it as outside of the regular 
order process considering the fact that----
    Ms. Wasserman Schultz. Did you decide this on your own, of 
your own initiative, with no outside pressure or direction?
    Mr. Irving. No, I worked very closely with the Committee on 
House Administration on this project. But I would say that 
ultimately the decision was mine to move the process forward.
    Ms. Wasserman Schultz. So no one else but House 
Administration and you?
    Mr. Irving. The leadership staff was also involved. But 
again, I was the one who----
    Ms. Wasserman Schultz. Did the direction come from the 
leadership?
    Mr. Irving. I wouldn't say that I--the relationship is such 
that direction comes from leadership when we are putting a 
security posture in place. The implementation of a security 
posture is my decision. It is a give and take with the staff in 
terms of what our vulnerabilities are, intelligence. And 
ultimately, I have to take the responsibility for----
    Ms. Wasserman Schultz. Was this brought to you?
    Mr. Graves. Ms. Wasserman Schultz, let me hit the pause 
button----
    Ms. Wasserman Schultz. Mr. Chairman, I am getting extremely 
frustrated. I don't think I am getting veracity in the 
responses to my question.
    Mr. Graves. I can understand that and sense that and 
understand the Sergeant to say he takes responsibility for the 
decisions that have been made, and he made that clear.
    Ms. Wasserman Schultz. I understand that. That is not my 
question. I will have other questions for the other remaining 
officers, Mr. Chairman.
    Mr. Graves. And let's all keep in mind that the Sergeant at 
Arms and his team has a responsibility to keep this complex 
safe.
    Ms. Wasserman Schultz. They also have the responsibility to 
be truthful when they are asked questions.
    Mr. Graves. I wouldn't suggest that he was anything but 
truthful. He took responsibility, is how I understood it to be.
    Ms. Wasserman Schultz. OK.

                          Remarks--Mr. Palazzo

    Mr. Graves. Mr. Palazzo.
    Mr. Palazzo. Are we sticking to the 5-minute rule?
    Mr. Graves. We will see how you do.
    Mr. Palazzo. Thank you, Mr. Chairman. Yes, I will keep it 
short.
    Thank you, Mr. Irving, for what you do to keep us safe 
here. And I think anybody in certain positions, we have to take 
actions to make sure that they are protected and taken care of.
    I appreciate everybody's service. It is sometimes not a 
thankful job, but we thank you.
    I would like to lend some of my remarks to my colleagues 
and the ranking member. I think I was hearing it right, you 
know, some of the cuts that we made to our representational 
accounts have been ridiculous. Over a 3-year period, 20 percent 
in cuts.
    We are all elected to come up here by our constituents and 
do a job. There are several components of our job. One is 
legislatively. But you can be here 20 years and never pass a 
bill. But back home, we have casework, we have interactions 
where constituents come to us. And when they come to their 
Member of Congress, they are desperate, right? They don't come 
to us first. They usually come to us last. They exhaust 
whatever approach they have with whatever Federal agency.
    In my district, we have the Veterans Administration, we are 
heavily military-oriented. So we do a lot of VA work--a lot of 
VA work--and I want to have talented staff that is not afraid 
to work hard and make sure our constituents are taken care of.
    So I just think any restoration to our MRA that we can make 
it is good business, because we want to keep talented people 
around so we can take care of our customers, which are our 
constituents. Twenty percent cuts, I mean, I won't beat it to 
death--I might--but it worked so well for us the first year we 
came back and cut the other wrist. It just makes no sense.
    But we have to lead by example, and I think we have done 
that by freezing our salary increase for, what, 5, 6 
consecutive years.
    Mr. Farr. Ten years.
    Mr. Graves. Ten?
    Mr. Palazzo. It shows that wage increases, we have seen 
that flat in the real world, and we should only be held subject 
to that, unless of course we are performing. But our 
performance hasn't been quite that stellar.

                          HOUSE CYBER SECURITY

    But getting back, can we talk cybersecurity? Mr. Plaster, I 
think that would be you. From time to time we get pop-ups 
warning us about scamming and phishing. And some staff takes 
that as, you know, it is like they lock up for a minute because 
they are maybe doing some research and they go to a site that 
they shouldn't, and they have to do, I guess, control-alt-
delete and start over.
    I am OK with that. I think we need to have strong IT 
protections in place because cybersecurity is real. There are 
bad actors out there that want to know what we are doing, 
whether we are talking about maybe Armed Services or Homeland 
Security issues, they want access to our servers and our 
communications. We are not always--we think we are safe and 
secure in our office and we can type and say or do anything 
that we want. Might not always be the case.
    Can you tell me what we are doing to try to get into the 
21st century and not lag behind the people that are out there 
trying to steal our secrets, steal our information?
    Mr. Plaster. Yes.
    Mr. Palazzo. And are we investing enough? Because I think 
it is extremely important. But there is a perfect world and 
there is a realistic world, and try to get somewhere in-
between.
    Mr. Plaster. I will try to cover all of those.
    What we are doing to adjust our cyber defenses against an 
evolving and very sophisticated threat, as you point out, is we 
are evolving our defenses from an older model that came up over 
the last 10, 15 years that was more--it was more focused on 
perimeter security on the House network. We had very 
sophisticated tools that were put in place, in layman's 
language, to stop the bad guys at the front door. And that was, 
I am oversimplifying our model for IT defense.
    Lately, as has been evidenced by events that have been in 
the news, OPM, Target, and others, the nature of the threat has 
changed fairly dramatically and the sophistication of those who 
are trying to infiltrate our network has increased 
dramatically. And they are not knocking at the front door 
anymore, they are finding much more creative ways to get into 
our network and then move within our network once they are 
inside.

                 THREE GENERAL AREAS OF CYBER SECURITY

    So looking forward, we are concentrating, if you will, on 
three general areas. One is the perimeter defense. Those are, 
again, very sophisticated tools run by very, very smart people 
that are monitoring what is coming and going out of our 
network.
    Just to give you an idea of the volume of network traffic, 
we received in 2015 about 200 million emails into the House of 
Representatives. Roughly a third of those could be categorized 
as virus, malware, or spam. So we are stopping, roughly, a 
third of 200 million emails coming into the House--that is just 
emails--using our tools.
    We have in place, and we are putting more into place, tools 
to monitor the traffic within the network because the threat 
now is the very bad guys, if you will. Once they get in they 
move around. So they may come in through one office, but once 
they are on the network what they try to move around within the 
network to get, kind of information you are talking about, 
financial information, communications, and then they want to 
take that and get it out of our network without us knowing.
    So we are putting in place additional tools to monitor for 
that kind of activity so that we can stop it if they try to do 
that. And we are segmenting up, if you will, the network to 
make it harder to move around from one office to another.
    And then the third component really is the users, 12,000 
users on the House network. Every one of them is a potential 
vulnerability. And that is why you see the requirements on 
password changes and information security training.
    The 12,000 users that we have are the subject of threats. 
The very sophisticated threats are coming after the users. They 
are looking for user passwords. They are looking for users 
outdated software and equipment that hasn't been patched, even 
in district offices, because they can get a toehold into our 
network that way.
    So users and the awareness of users about the security 
threats, about the phishing, and how to combat that on the user 
level is important. And we are going to have to do more to make 
sure that Members and staff are aware of the scope of the 
threat and the role that they play in combating that.

                 ADEQUATE RESOURCES FOR CYBER SECURITY

    Mr. Palazzo. Do you believe that we are giving you the 
resources to make sure we are safe? And again, I think we have 
talked about this is a must-have versus if-we-could-afford-it-
have. Are we doing that?
    Because cyber warriors or people involved in the IT, it is 
such a huge demand. Are we paying them to keep them in or do 
you see a turnover? Because if you hire good staff, you train 
them up, and they become very proficient with the system, you 
don't want to lose them to a private contractor or public 
company, because they are having their own issues and threats 
to deal with, like our military and homeland security.
    Because something as simple as your itinerary, we could 
very easily become a soft target if someone wants to do 
something with your calendar. Of course, I am not near as 
important as many of the other Members or people in leadership, 
but travel in the district or going on a codel, that 
information in the wrong hands could be dangerous.
    Mr. Plaster. It could. And, I can tell you that it is not a 
hypothetical threat, There are people who are pursuing that 
kind of information for whatever reason, whether or not it is 
for a physical threat or not. But there are plenty of attacks 
on our network, and they are looking for all of that 
information, all of your information. So it is not 
hypothetical, it is happening.

                 RECRUITING AND RETAINING QUALITY STAFF

    In terms of recruiting and retaining the quality staff so 
that the folks on our team are better than the folks on the 
other team, that is a struggle. A lot of these guys probably 
could command multiple times, not just more in the private 
sector, but multiple times what they can here. So we have to 
provide them with other reasons that aren't financial for 
working for the House and for staying here, and we have to work 
very hard to give them those sorts of rewards.
    But we have very good people, and I am very content with 
the quality and the dedication of the staff that we have. We 
have a new CISO, relatively new CISO, who, again, I am glad is 
on our team.
    So in terms of are we spending enough? I think a lot. I can 
answer that question in the same way you could answer, are we 
spending enough on physical security? You could spend more. You 
could always spend more and be more safe. So where is the sweet 
spot? We are spending a lot. We are not uncomfortable with our 
current budget request. We could probably spend more and be 
marginally more secure. We probably could not spend a lot more 
and do so in any justifiable way. You want to give me a lot 
more, I will spend it, but I would have a hard time----
    Mr. Palazzo. Might not be the most efficient.
    Mr. Plaster. Right. I would have a hard time defending it.
    Mr. Graves. It comes out of your MRA, by the way.
    Mr. Palazzo. I can't afford anymore.
    Mr. Graves. Another thought-provoking questioner of our 
committee, Mr. Farr, who has served well for many, many years.
    this is your last term as well. We appreciate your work on 
the committee.

                           Remarks--Mr. Farr

    Mr. Farr. I am getting congratulated by everybody. Half of 
them are friends and the other half of them are congratulations 
and good riddance.
    Thank you very much, Mr. Chairman.
    First of all, I just want to make a comment. The spam 
screening, they are pretty good. They pick out my wife's emails 
and send them to spam and then I can clear them. But the Arabic 
messages in Arabic get all the way through, right to me. I 
don't know how those escape the spam filter.
    I want to go back to this issue that Congresswoman Debbie 
Wasserman Schultz talked about. What triggered it is this 
magnetometer, putting it in the Longworth Building, in the 
garage. And it just seemed, in looking at it, is why here, why 
now, why this place?
    You said you initiated this from what happened in Riverside 
and so on, in San Bernardino County, as an intel sort of 
problem. Yesterday, the Chief told us we have 32 police 
departments in this town. If it is an intel issue, it ought to 
be shared with all them and they ought to be involved in 
perimeter security, because I always learned what you want to 
do is perimeter security.
    I know you have plans for installing an underground alarm 
around the perimeter of the Capitol, providing full camera 
coverage of the Capitol Grounds, to bolster the physical 
structure of the outer planters and Olmstead wall, to upgrade 
the lighting on the Capitol plaza. I hope that is not going to 
create light pollution. All of these would be enhancements to 
counter outside threats. Why don't we do that before we install 
just a magnetometer in Longworth when we are not going to do 
anything about Rayburn, which has 80 doors?
    We always thank all of you for your leadership role. I 
would like to thank everybody in this room. We all work for the 
same government. This is what I love about this committee: It 
is the only time that everybody in here is part of this family. 
These discussions on our budget essentially are our household 
finance. It is about how do we pay these people and do the 
things that we have hired them to do.
    And when I asked about this in my office it was: Well, 
don't worry, it is not going to cost us anything. But it is not 
in your budget. It is in the Chief's budget. And here they 
asked for 72 new officers, 48 civilian positions, and more.

               MAGNETOMETERS THROUGHOUT THE HOUSE CAMPUS

    So I pointed out to him yesterday, as we were speaking, 
there was a line to enter Longworth, as I see all the time. My 
office is on the first floor of Longworth and I go through the 
front door. Often that door, you have two magnetometers in 
there, one of them is just totally there, never manned.
    We had people last week, when it was raining, standing in 
the rain all the way to the curb. When I go in there and ask 
the officers, I say, ``Can you call and see if you can get some 
more up here to help you?'' because I am out there telling 
people to go around to the sides or whatever, the officers on 
duty just kind of shrug their shoulders and say, ``We can't get 
any help.''

                      ACCESS TO THE CAPITOL CAMPUS

    So why don't we prioritize where our problems are right now 
rather than building that magnetometer at the Longworth garage? 
You are not going to have the manpower to do it. And it hasn't, 
as Debbie pointed out, it hasn't been discussed and budgeted.
    But I think the most thing that it does, it is just an 
affront to staff So much since 9/11 has happened. The whole 
West Front of the Capitol is shut off, this incredible space 
and beauty of this spot where you really see the Mall. But the 
public can't go there. I don't know why not.
    Then, we close the garages. And so what we are doing is 
shutting it down so the people who work here have a harder time 
getting in. I do my town hall, electronic town hall meetings at 
night. It starts at 9 o'clock or 9:30 Washington time. That is 
6:30 California time. So my staff isn't out of the building 
until 11 o'clock at night, and the garage is closed, or they 
can't get in at 9 o'clock to come back and do the town hall 
meeting because we don't have enough people to man the garages.
    So why don't we create the priority that really allows us 
to do our work rather than distrusting our staff?
    And lastly, I would just like to ask you as part of this 
question, how many Members carry weapons?

                  GARAGE SECURITY INITIATIVE CONTINUED

    Mr. Irving. OK. First, Congressman, I appreciate very much 
your thoughts on the garage security issue, because, believe 
me, these decisions weigh heavily on me.
    The vulnerability of our House garages has been something 
that has been in the background for a long time. We feel that 
proper security protocol would be to include the House garages 
or the House office buildings in our secure perimeter. So 
similar to the Senate and the Capitol, once you enter, you are 
in the secure perimeter, and then you, for example, would not 
need to get, let's say, rescreened going from the House office 
buildings to the Capitol.
    Mr. Farr. So you have put one in Longworth now. When are 
you going to put them in Rayburn?
    Mr. Irving. Well, it would be incremental. That would be 
something, obviously, working very closely with the committee 
to eventually work toward.
    Mr. Farr. So you get screened coming in from Longworth 
garage, but you can drive in the Rayburn garage, get out of 
your car, no screening, take the underground, and go right in 
the Longworth Building. You will make those Rayburn parking 
places a premier place for the Longworth employees.
    Mr. Irving. It is such a large project getting all our 
House garages secure that we felt an incremental approach, 
little by little. To do it all at once would be----

               ORDER OF THE LONGWORTH SECURITY INITIATIVE

    Mr. Farr. Why pick on Longworth then? I mean, what is the 
impact on the morale of staff? You know, this isn't fair.
    Mr. Irving. Well, the Longworth, Cannon, the east and west 
underground were certainly the easiest, along with the Ford 
Building. The Rayburn, as you have said, is quite a bit more of 
a challenge.
    Mr. Farr. Why not do it all at once?
    Mr. Irving. We could do that, but we would rather get 
some----
    Mr. Farr. Is it such a high priority you have to do that 
right now? I mean, we are going to solve the San Bernardino 
threat by putting up one magnetometer in Longworth?
    Mr. Irving. It is a judgment call, but I think those of us 
in the security field would like to put as much security in 
place as possible.
    Mr. Farr. Sure you would love it. That is mission creep. I 
think mission creep is, one of the criticisms I have of your 
team. You even suggested that we could do a lot more through 
interoperability of all our other law enforcement agencies. You 
are building an empire on the Hill. Your budget is bigger than 
my town of 200,000 people that has a gang killing almost once a 
week.
    I would love to have this budget for my town, where we 
really do have threats. And those are drive-bys, innocent 
people getting killed, kids walking home from school, mistaken 
identity, and boom, you are dead.
    I don't talk about this budget back in my hometown because 
people would be angry as heck. They would think that weYou are 
sort of taking care of ourselves first and not taking care of 
them.
    I think that we have to set priorities. I think the 
Longworth magnetometer just doesn't seem to have gone through a 
normal process of thinking this out. I think you ought to be 
more involved with working with all these other law enforcement 
agencies. Why do we have to have our own SWAT team, our own dog 
team, our own bomb squad, our own chemical squad just among the 
Capitol Police?

                     CAPITOL POLICE BOARD CONTINUED

    And as I understand it, the Board sets all of those 
mandates, then they come in here and need all this money for 
overtime. I mean, the budget is just expanding. At the same 
time, our Member budgets don't expand. The airfare to 
California has just doubled. GSA just negotiated a wonderful 
Government rate with United, and it is double what it was. Do 
you think our MRA gets bigger? So what does staff do? I let 
off, so I can fly home.
    If we are going to take care of the family, let's take care 
of everybody, not just say that law enforcement gets it and 
everybody else has to wait their turn.

                           SCREENING MEMBERS

    So, Mr. Chairman, I am concerned that if we don't do this 
right, we create an internal dissension. Staff is not getting 
COLAs, but seeing others getting it. And finally I would like 
to know if, with all this security, how many Members of 
Congress carry weapons?
    Mr. Irving. We don't know that number, considering that 
Members don't get screened. We don't know that number.
    Mr. Farr. But they do?
    Mr. Irving. I am sorry?
    Mr. Farr. Members do have weapons and they can bring them 
into the Capitol?
    Mr. Irving. They are permitted by statute to----
    Mr. Farr. Statute? I thought it was against the law to 
bring a weapon into the Capitol.
    Mr. Irving. There is statutory authority within the 
Capitol. For example, they can bring firearms to their office. 
I can provide you with all that information. And because of 
that, we don't, as you know, we don't screen Members, so we 
just have no----
    Mr. Farr. You have no idea?
    Mr. Irving. No.
    Mr. Farr. So here we are going to take all our staff, and 
you have got to go through double, triple inspection, but 
Members can walk in here with a weapon and you don't even know 
if they have it, to get away with it.
    Mr. Irving. That is the statute.
    Mr. Farr. That is a statute.
    Mr. Graves. Mr. Farr, you have done a great job of taking 
us exactly to 2:30.
    Mr. Farr. I have another question.
    Mr. Graves. And I appreciate that.
    Mr. Farr. One more.
    Mr. Graves. I know Ms. Wasserman Schultz does as well. And 
as I think about this, and I know we do have the Library of 
Congress next, there is probably more to discuss, I would 
suspect, and I am open to that. And if the Sergeant at Arms is 
open to that, I would suggest that we meet together again at 
another time and.
    Ms. Wasserman Schultz. In an open hearing?
    Mr. Graves. We can have that--why don't you and I have that 
discussion together, because I think you bring up some fair 
points, Mr. Farr does, and there might be other members on our 
side that would have some other questions as well. But as we 
end the committee.
    Ms. Wasserman Schultz. Mr. Chairman, I did have other 
questions for the remaining officers. And I would think there 
would be more questions for this group than there is going to 
be for the Library and for the Copyright Office.
    Mr. Graves. You think so?
    Ms. Wasserman Schultz. Just a guess.
    Mr. Farr. I have a question of the Administrative Officer. 
I don't know how you are going to do this.
    Ms. Wasserman Schultz. I would just request, respectfully, 
that if we could lengthen this meeting, because I don't think 
the next meeting is going to be quite as long.
    Mr. Graves. If we can----
    Ms. Wasserman Schultz. Even though I am asking the most 
questions, Mr. Chairman.
    Mr. Graves. I would suspect to lengthen this meeting a 
little we would have to shorten the questions a lot, because 
our questions tend to be very long.
    Ms. Wasserman Schultz. I will do the best I can. But we 
have an abbreviated hearing schedule, so we are having to cram 
a lot in, in just a few minutes.
    Mr. Graves. I understand.
    Let me say for the Sergeant at Arms real quick, just 
hearing the discourse here a second, I don't in any way want 
you to sense that there is disrespect for what you or your team 
does. We are grateful for the security you provide. And, I 
don't personally believe it is the role of this committee to 
micromanage each and every activity you do. It is, obviously, 
our role to take heed to the requests you have made, the 
spending, and then to make our recommendation back as we pass 
the bill through.
    But I suspect there is an opportunity for each of us to get 
back together to maybe resolve some of the questions that are 
still outstanding.
    Mr. Irving. I would look forward to that. I really would.
    Congresswoman, I do want to address some of your points as 
well, because I don't want there to be a question, a veracity 
question in your mind. If we have more time we can chat a 
little further about this. I just want you to know that I do 
make ultimately--many Members coming to me day in and day out--
I don't really make those. But I would like to engage in a 
little more conversation with you on this.
    Ms. Wasserman Schultz. As would I.
    Mr. Graves. You have a very challenging role, but a great 
track record with this complex. We are grateful for that.
    So one question each? Is that what I understand?
    Mr. Palazzo, you have a question for anyone else on the 
panel?
    Mr. Palazzo. Was Mr. Farr trying to make a point to let our 
staff carry weapons? I think it is only fair, if Members are 
carrying weapons and if you go through enhanced security, maybe 
we should let our staff carry as well?
    Mr. Farr. Well, I think I was agreeing with your suggestion 
that we ought to lead by example. If we are going to not allow 
anybody else to have weapons in this Capitol, you certainly 
shouldn't allow Members to have them.
    Mr. Palazzo. I apologize. Like my wife says, I only hear 
what I want to hear. I am just exercising my second amendment.

              AMOUNT OF DOLLARS REPROGRAMMED FOR LAWSUITS

    Mr. Graves. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. I have two 
questions for the CAO. So I would ask your indulgence in asking 
both of them.
    Mr. Graves. You asking them together, jointly?
    Ms. Wasserman Schultz. They are completely different 
questions, but I am happy to ask them together. And I can 
assure you that the CAO knows they are coming.
    Mr. Graves. OK.
    Ms. Wasserman Schultz. Briefly, last year Mr. Kircher and I 
went round and round over his inability to budget for the 
partisan lawsuits that appear to be cropping up against the 
administration over the Affordable Care Act. Guantanamo Bay now 
is being prepared, as is Planned Parenthood and the Planned 
Parenthood Select Committee. We recently learned that Mr. 
Kircher has hired another law firm to eventually enter into 
legal action against the Obama administration to prevent their 
efforts at Guantanamo Bay.
    We might disagree on the merits of the cases, Mr. Chairman, 
that is not my issue. But again, you can sense the running 
thread through everything I have asked in our last two hearings 
is that we are doing things that we absolutely could anticipate 
and have the right to exercise oversight for here outside of 
the regular order process. As a result, unelected--no 
disrespect to Mr. Kircher, but he was never elected to 
anything, and neither was the CAO--unelcted people are making 
these decisions. So the decisions about millions upon millions 
of dollars made outside our regular order process aren't 
responsible.
    There is no agency that knows exactly what litigation they 
are going to enter into, but there is a possibility of, as the 
Department of Justice does, anticipating what their needs are 
going to be. But we are doing a disservice to the House if we 
continue to fund lawsuits through reprogrammings, because those 
are not public documents, no one sees that. And I know, Mr. 
Chairman, you are committed to regular order, and so many of 
your members are.
    So since we don't get an estimate of the lawsuits, I do 
want to enter this article into the record, if I might, because 
we do need to know what the House majority has spent thus far 
on taking this administration to court.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Ms. Wasserman Schultz. I would like Mr. Plaster to give us 
an estimate of the total cost that has been reprogrammed from 
other House offices since 2011 until now to the Office of the 
General Counsel. And I would like Mr. Kircher to provide 
details of his budget, including how much has been spent or 
budgeted for each litigation that he has entered into from 2011 
until now. If they can get me that information outside the 
meeting, I would appreciate it, because it is important.

                   SODEXO--HOUSE FOOD SERVICE VENDOR

     Mr. Plaster, the other question I have is regarding 
Sodexo, the new vendor that has taken over the cafeterias, as 
well as our convenience store and dining room. I don't have to 
tell you that there has been an explosion of complaints about 
both the quality of the food and the cost of the food. Again, 
we have hard-working young people here who are not earning very 
much money, and it costing them an arm and a leg to eat is 
really unfair. I mean, when you have The New York Times write 
an article about how bad and expensive the food is in the House 
cafeteria, you know you have a problem.
    So I would like you to answer, when the contract is up for 
review? We are putting up a lot of money for infrastructure to 
redesign the House cafeteria, and I want to make sure they 
succeed. But what are we going to do to turn this problem 
around in the confines of the contract?

                 FEMININE HYGIENE PRODUCTS AVAILABILITY

    The other thing I want to raise here is the Longworth 
convenience store. We seem to have forgotten that there are 
women who work in the Capitol complex. It has come to my 
attention that the convenience store has stopped stocking 
feminine hygiene products. I know that some might be concerned 
about my going there. But if you are not a woman, it is tough 
to understand that when you need a feminine hygiene product you 
need one immediately. So for the convenience store to stop 
stocking products like that is really inconvenient, the 
opposite of the purpose of a convenience store.
    The other thing, which I know may have more to do with the 
Architect, but if you could take it as your responsibility to 
communicate with the Architect, every woman has faced the 
frustration, whether it is a staff person, a visitor, a Member, 
of going into one of the women's bathrooms anywhere in the 
Capitol complex and finding a completely broken feminine 
hygiene products machine. I had my staff text me today a 
machine that has an out of order sign on it, and I will show it 
to you. It is right here. Out of order. Just today.
    These are essential items that are just as essential as 
toilet paper is, and it is absolutely a necessity to remedy 
this situation. I would like to ask you what we can do about 
making sure that the convenience store is stocked fully with 
the range of feminine hygiene products that women need, and 
also to make sure that we have functioning machines--which, 
quite frankly--my colleague, Grace Meng has raised this as 
well--should be free. It is like charging for toilet paper. And 
we certainly wouldn't want to do that. So if you could respond 
to that concern.

            CAO RESPONSE FOR LAWSUIT REPROGRAMMING QUESTION

    Mr. Graves. Mr. Plaster, real quick. The question on the 
dollars from 2011 forward. If you happen to have that, feel 
free to share that figure. I imagine that is a pretty simple 
number.
    Mr. Plaster. $2.891 million since 2011.

                    CAO RESPONSE FOR SODEXO QUESTION

    Mr. Graves. And then I know the cafeteria question is 
something you are probably prepared to give a bit of response 
to. And then the other questions, I don't know if you are ready 
for a response today.
    Ms. Wasserman Schultz. He is ready.
    Mr. Graves. And welcome to your first hearing.
    Mr. Plaster. Obviously, food service, to no one's surprise, 
has been often brought up and brought to my attention since my 
first day on the job, and with a variety of complaints. It is a 
daily occurrence where I am engaged with our contract 
management folks and the Sodexo management in an effort to help 
Sodexo better adjust to the environment that they are now 
working in here at the House.
    I believe they are committed to making those adjustments. 
They may not be happening as fast as all of us would like them 
to. But I think they are sincere in their efforts to effect the 
changes and the improvements that have been asked of them. So 
we are working on that every day.

        TERMINIATION TIMELINE FOR SODEXO FOOD SERVICES CONTRACT

    Ms. Wasserman Schultz. And we have the ability to terminate 
their contract for cause?
    Mr. Plaster. For cause we would, as in any contract.
    The specific answer to your question is, when is their 
contract up for review? It would be 2019. The contract started 
last year. So their base period ends in 2019.
    As for the other issue, I found out this morning that 
complaints similar to yours had already been registered, and 
the vendor has responded already with some additional stock. I 
was in contact with the Superintendent of the House office 
buildings this morning and made sure they understood your 
concerns.
    Ms. Wasserman Schultz. Thank you.
    Mr. Plaster. As we speak, I believe, making sure that those 
are addressed.

               FEMININE HYGIENE AVAILABILITY (CONTINUED)

    Ms. Wasserman Schultz. Thank you. I mean, not to go into 
too much detail, but I saw what was added to the inventory in 
the convenience store today, and that is insufficient.
    Mr. Plaster. We will continue to review it.
    Ms. Wasserman Schultz. So if we could expand the 
availability, that would be great.

               COMMITTEE AND CAPITOL POLICE BOARD MEETING

    And, Sergeant, the meeting you referenced is a staff 
meeting, it is not a meeting with Members. So that is not the 
same thing. Related to the Capitol Police Board and House 
Administration, that is a staff-level meeting.
    Mr. Irving. Yes, that is staff, but we can certainly, 
absolutely, do Members as well. So I will address that with my 
counterpart, with the Senate Sergeant at Arms.
    Mr. Graves. Mr. Farr, you had an additional question.

         INCREASING MEMBERS' REPRESENTATIONAL ALLOWANCE BUDGET

    Mr. Farr. Just a suggestion on the Sodexo issue. My staff 
gave me this note that Francisco Fimbres, who is supposed to be 
the liaison with Sodexo, never responds to emails and has no 
on-site phone. There is not even a suggestion box in the 
cafeteria anymore. You have got to give some way to get 
complaints. They are all going to come--the main issues are all 
going to end up in your office.
    But I have a bigger question, and I think it has been a 
theme all around here, is that, why doesn't your office ask for 
a bigger budget for Members' offices? I mean, this budget that 
we are dealing with, the appropriations bill deals with, is 
Library of Congress, Capitol Police, the Architect of the 
Capitol, the GPO, Congressional Budget Office, Library of 
Congress, CRS, and that is just to name a few. All those 
budgets request funds to cover natural salary increase, merit 
awards, and COLAs. For fiscal year 2017, the COLAs for these 
agencies is 2.6 percent, which is exactly what the President 
asked for in the pay raise request, plus locality pay.
    Last year, this committee was forced to return $33 million 
to the Treasury because the House had hit its authorized cap 
and could not use these funds to increase allocations to House 
offices. These could have been used for our COLAs. Staff hasn't 
had a COLA increase in 5 years Members in 10 years. That is our 
fault because we don't vote for it.
    But not our staffs. Haven't had a COLA increase in 5 years. 
But in the interim, the inflation costs have risen 7.7 percent. 
That means our offices had to do the same or better jobs with 
less money, and that stretch is really causing problems in our 
office now.
    So my question to you is, why don't you ask for an increase 
in our Members' offices? And what is keeping you from bumping 
up the budget number?

    DETERMINING THE MEMBERS' REPRESENTATIONAL ALLOWANCES BOTTOMLINE

    And I want add to that, as I said, GSA just came out and 
negotiated the new Government rates which Members fly by, and 
from Washington to San Francisco it is double what it was. And 
so we have to just eat that. And what happens is you end up, 
frankly, having to let people go who thought they had a career 
here, or at least whatever career you have in politics.
    You ought to be the champion for our own offices.
    Mr. Plaster. Remember, I have only been on the job for 2 
months. Hopefully, I can have a little bit of leeway in not 
having to relate exactly what the deliberations were prior to 
my being in the office between the budget office and the 
various stakeholders that weigh in on the budget formulation 
numbers before the CAO's office is submitted.
    It is a discussion between our budget office and this 
committee and the House Administration Committee and others 
that leads to a consensus about what the submission is. If the 
committee----
    Mr. Farr. Well, why did $33 million have to be returned?
    Mr. Plaster. I can't speak to that. I am not familiar with 
the circumstances around that. We can find out and we certainly 
get back to you on that.
    Mr. Plaster. From last year you are talking about?
    Mr. Farr. Yes.
    Mr. Plaster. But in terms of the request for fiscal year 
2017, if the committee feels that it is important to add money 
to the budget request for the MRA, that is certainly within 
your prerogative.
    Mr. Farr. Do you take into considerations like this GAO? We 
all have to travel with that rate. Maybe in some areas it has 
gone down. But transcontinental traffic has really gone up.
    Mr. Plaster. I believe the travel costs are somewhat 
factored into the formulation of the MRA allocation by the 
committee. But I don't want to speak for the House 
Administration Committee.
    Mr. Farr. Say that again?
    Mr. Plaster. Not all MRAs are the same. Not every Member 
gets the same MRA.
    Mr. Farr. I know the California delegation wrote a letter, 
presumably to you, asking that we get--or I guess to the 
committee, asking them to increase the MRA for travel, long 
distance travel.
    Mr. Plaster. That would have been probably to the Committee 
on House Administration.
    Mr. Farr. There was no response.
    Mr. Graves. That it, Mr. Farr?
    Mr. Farr. Yes, sir.
    Mr. Graves. I would recommend also, and we can do this from 
our office, is just reach out to the House Administration 
Committee as well. They are heavily involved in formulating 
what MRAs are comprised of for each and every Member based on 
some formulary calculation that is adjusted based on cost of 
living and other things. That is my understanding.
    Mr. Farr. We don't go over the Senate's budget, but the 
rumor was that the Senate gave their staff COLAs.
    Mr. Graves. That is quite possible. As you will recall, the 
Senate has not cut any spending in the Senate or Senate offices 
or any of their funds or COLAs since, I guess, since 2010. 
While we have taken the 21 percent cuts, they, in fact, were 
increasing their office budget.
    Mr. Farr. It is a good thing we are leading by example.
    Mr. Graves. The Senate doesn't often follow our great 
example, trust me.

                      Closing Remarks--Mr. Graves

    To each of you, thank you for joining us today and for the 
extended time you gave us.
    Ms. Haas, you had the easiest question of the day 
apparently.
    Mr. Irving, we will look forward to following up.
    And, congratulations on your successful completion of the 
hearing today, Mr. Plaster.
    And I guess we will hang around a few minutes then for 
Library of Congress.
    [Questions submitted for the record follow:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    

                                          Wednesday, March 2, 2016.

                          LIBRARY OF CONGRESS

                               WITNESSES

DAVID S. MAO, ACTING LIBRARIAN OF CONGRESS
ROBERT R. NEWLEN, CHIEF OF STAFF

                  Opening Statement of Chairman Graves

    Mr. Graves. If everyone is ready, we will start our next 
hearing. Thank you for joining us today.
    We would like to welcome acting Librarian of Congress David 
Mao and the Library's Chief of Staff, Robert Newlen. Thank you 
all for being with us today and for your patience as we were 
getting through the last hearing.
    We will start this panel concerning the Library's 2017 
budget request, and then we will have an additional panel after 
we go through some of the questions with the Library itself, 
and that is to discuss bringing the Copyright Office into the 
digital age.
    I am personally pleased to see that the Library is 
positioning itself for the future through a lot of the critical 
improvements to its information technology. It is something I 
know we discussed a lot last year. Additionally, the Library 
continues to make available its collections in digital as well 
as physical form, all while transitioning to the new 
leadership.
    The Library is requesting $667 million, which is an 
increase of over $73 million from 2016's appropriation. That is 
just over a 11 percent increase that they are requesting. And 
as we have shared with all the panels before us, obviously that 
is your request. Our role, and as you have seen and heard, is 
to question, scrutinize, and see if there are areas of savings 
that we can achieve for the taxpayers, but also respecting that 
your request was put forward in good faith in order to carry 
out the acts and the duties that you see fit.
    And next, I would like to welcome Ms. Wasserman Schultz for 
any opening remarks she might have.
    Ms. Wasserman Schultz. Thank you.

         Opening Statement of Ranking Member Wasserman Schultz

    Thank you, and welcome back to the subcommittee, Mr. Mao. 
There have been many changes at the Library since you were in 
front of the subcommittee last year as the Deputy Librarian. We 
continue to honor the service of 28 years of our retired 
beloved librarian, Dr. Billington, who now has moved to his new 
role as Librarian of Congress Emeritus, which I know we were 
really thrilled to be able to bestow upon him. It was well 
deserved.
    We also have a new nominee for this esteemed position. The 
President just nominated Dr. Carla D. Hayden, who I am looking 
forward to meeting, who has admirably served in a variety of 
roles in libraries across the Nation, and she will bring a 
wealth of experience and knowledge. She would be the first 
woman and the first African American to become the Librarian of 
Congress if the Senate moves forward with her confirmation, and 
I hope they will do so in a timely fashion.
    I would be remiss, though, if I did not thank Mr. Mao and 
the Library of Congress Chief of Staff, Robert Newlen, for 
their extraordinary leadership during what has been a 
significant time of transition. Mr. Mao and Mr. Newlen have not 
missed a beat, and they have not waited to make necessary 
improvements, notably regarding governance issues and the 
Office of Copyright. You both stepped up to the task and 
provided leadership and service, and we thank you all for your 
efforts.
    The Library, as I have said many times, is the jewel of 
this bill and of our jurisdiction, and the return on investment 
that we get from your work is immeasurable. The Library has 
always had a robust campaign to leverage private sector dollars 
for important programming, and Congress, researchers, and eager 
learners everywhere immensely benefit from it.
    One fantastic example of this collaborative nature of the 
Library is the Rosa Parks Collection. The collection, on loan 
for the Library for 10 years from the Howard G. Buffett 
Foundation, has made approximately 7,500 manuscripts and 2,500 
photographs available to researchers and the public.
    Looking more closely at this budget writ large, the Library 
has appropriately put forth a request that prioritizes IT 
needs, information technology needs, storage deficits, and data 
management. Our Library must keep pace with rapidly changing 
technology and have the right staff to do so.
    Two of the Library's components are seeking increases that 
deserve serious consideration, Mr. Chairman, if for no other 
reason than their importance of their mission to Congress and 
the Nation.
    CRS' budget has remained virtually flat since fiscal year 
2014. For reference, CRS was funded at $112.5 million in fiscal 
year 2010, and their current appropriation is only $106.9 
million, $5.6 million less than levels provided 6 years ago. So 
not adjusted according to inflation, actually less.
    As our own staff budgets remain flat, Members and 
committees continue to rely on CRS experts to provide critical 
analysis of legislation and quick turnaround of information 
that are used by Members and committees. I mean, I would argue 
that our need to rely on CRS is even more critical given the 
flat funding that we have had in our MRA budgets.
    Although this subcommittee oversees the smallest bill, the 
Library is an example of why we must fund agencies that have 
high returns on our investment. GAO and CRS both fall into that 
category by helping Congress analyze the vast executive branch, 
its many programs, and other critical information that benefit 
the American people.
    Mr. Chairman, I appreciate you having a second panel with 
Maria Pallante, the Register of Copyrights. We put a lot of 
requirements in the bill last year to put Copyright on a path 
to modernization. We just received a 5-year plan that we asked 
for in the omnibus on Friday. I am looking forward to reviewing 
it.
    Finally, as a result of our bill, the public will provide 
comments on ideas for funding strategies to accomplish this 
critical modernization. Ultimately, it will require some 
combination of Federal appropriations and increases in user 
fees. We should have those comments back before we mark up a 
bill. So we have a lot of ground to cover today with the 
Register, and I look forward to hearing from both panels of 
witnesses.
    Mr. Graves. Thank you.
    We will invite Ms. Pallante to join Mr. Mao in a few 
minutes, after we go through this panel, but feel free to 
summarize your statement and know that your statement will be 
submitted for the record as well as your statement for the 
Register of Copyrights and the Director of CRS.

         Opening Statement of the Acting Librarian of Congress

    Mr. Mao. Thank you very much.
    Chairman Graves, Ranking Member Wasserman Schultz, members 
of the subcommittee, good afternoon. Thank you very much for 
the opportunity to provide testimony in support of the Library 
of Congress fiscal year 2017 budget request. We are very 
grateful for the continued support that you and the Congress 
give to the Library. And in particular, I want to express deep 
gratitude for your help last year with some of our urgent 
fiscal collection management needs.
    The Congress has sustained its Library for more than 215 
years. It is the largest collection of the world's recorded 
knowledge ever assembled by one institution. And now, with over 
162 million items, the Library includes the world's largest 
collection of legal materials, films, recordings and maps.
    Library staff have provided research and analysis to the 
Congress for more than 100 years through the Congressional 
Research Service and almost 200 years through the Law Library. 
And the Library has supported and protected U.S. creativity and 
innovation since it became the national home of the copyright 
function in 1870.
    But the Congress has been and remains the Library's primary 
focus. Our highest priority as an institution is to support the 
legislative, oversight, and representational work of the 
Congress.
    I appear before you today during a time of significant 
change and opportunity for the Library of Congress. As we 
prepare for new leadership for the first time in almost three 
decades, our goal is to position the Library to serve the 
Congress and the American people in a future where 
technological advancement drives change at an accelerating 
pace. The Library must adapt to this rapidly changing 
environment.
    Over the last year, we reconfigured the Library's 
organizational structure to meet increasing demand. We also 
released a new strategic plan for 2016 through 2020 that 
provides a path forward and is deliberately flexible to 
accommodate needs as they evolve.
    As part of the realignment and to support the new 
organizational structure, the Library made critical leadership 
appointments of a Chief Information Officer and a Chief 
Operating Officer, which centralize oversight of the Library's 
information technology and operational infrastructure 
functions.
    Additionally, we appointed a director of the newly created 
National and International Outreach unit to lead consolidated 
outreach activities, including collaborative efforts with other 
institutions.
    The Library of Congress fiscal 2017 budget request is for 
approximately $667 million. It is a 11 percent increase over 
the Library's fiscal year 2016 budget. And of this, 3.5 percent 
covers mandatory pay and price level increases, or 
approximately $23 million.
    The balance of the increase represents critical investment 
in information technology and related infrastructure, the care 
of and access to our digital and physical collections, and 
human capital with new expertise.
    As the important work of the Library continues, demand for 
our services grows. We therefore seek to achieve much-needed 
transitional improvements, particularly in response to the 
Government Accountability Office findings on the Library's 
management of information technology.
    We are dedicated to strengthening our information 
technology and physical infrastructure that will significantly 
leverage the Library's capabilities and capacities. Because 
complete transition cannot be accomplished in one year, 
however, we must first address the most urgent shortfalls in 
key infrastructure areas: information technology, care of and 
access to our collections, developing and maintaining human 
skills.
    Through several years of declining budgets, we compromised 
and took risks in these areas, often making difficult choices 
to cover mandatory cost that ensured current operations while 
sacrificing investment for the future. Continually funding 
near-term operational demands at the expense of long-term 
investment has allowed some mission critical areas, such as the 
data center/primary computing facility, to reach the point 
where they represent serious risks.
    Much has changed since the Library put key infrastructure 
into place in the 1990s and early 2000s. Technology has 
advanced, congressional and public demands have changed, and 
some infrastructure has become outdated. The Library's budget 
request, which represents transition and transformation, aims 
to position the Library to move forward.
    To avoid mortgaging the future by continuing to support 
infrastructure that cannot handle current and future demands, 
we must make long-term investments that move us in the most 
economical way and bring in new expertise. Our future service 
to the Congress and the American people depends on having a 
modernized infrastructure and one that is efficient, proper, 
and lasting.
    Chairman Graves, Ranking Member Wasserman Schultz, and 
members of the subcommittee, the Library is both America's 
first cultural institution and part of the innovative 
infrastructure of America. So I thank you again for supporting 
the Library of Congress and for your consideration of our 
fiscal year 2017 request.
    [The prepared statements of Mr. Mao, Dr. Mazanec, and Ms. 
Pallante follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                          CONGRESSIONAL DIALOG

    Mr. Graves. Great. Thank you. Thank you for your statement 
there.
    And I was just thinking back as you were giving your 
comments there, I know in the past you have generally sat in 
that seat and with Dr. Billington sitting where you are. So it 
is big shoes you are filling, I know a big void, but tremendous 
history and heritage that he has provided, and we are grateful 
for that. And appreciate you stepping in during this interim 
period and look forward to continuing working with you.
    Quick question from my end and then I will go to Mr. 
Palazzo, I will yield the rest of my time to Mr. Palazzo, if 
you have a question.

                   PRESERVATION--MASS DEACIDIFICATION

    Last year, a lot of focus was spent on protection of books 
and manuscripts and such through the deacidification process. 
What is the plan for fiscal year 2017? Is it maintaining the 
200,000-book level of protection?
    Mr. Mao. Mass deacidification is one of the preservation 
tools that we have in our toolkit for preserving all of our 
materials. It is one of the ways that we will continue to 
preserve our materials going forward.
    Mr. Graves. And you suspect you will stay on the goal? I 
know that you have a lot to get to over the years.
    Mr. Mao. Yes.
    Mr. Graves. Are there objectives, number of books or 
manuscripts over time?
    Mr. Mao. Exactly, and we will tweak those as we see fit. 
Certainly, we have done a large amount of mass deacidification, 
and we see less material as a whole coming in that may need 
mass deacidification. And we try to balance all of our 
preservation needs. Certainly if we do one type, it comes at 
the expense of another, as with any budget. And so we are 
looking at all of our preservation needs, and certainly mass 
deacidification is something that we plan to continue.
    Mr. Graves. Thank you.
    Mr. Palazzo, I yield the rest of my time to you.

                      MASS DEACIDIFICATION PROGRAM

    Mr. Palazzo. To kind of follow up on the chairman's 
question, I know we budgeted $5.5 million and we got 200,000 
books--I think that was part of that fiscal year 2015 budget--
and a million manuscripts, and then the same amount of money 
for fiscal year 2016. Have we done the same amount of books? 
Can you give me a number? Are we projected to do again another 
200,000?
    Mr. Mao. We are projected to continue on with the plan that 
we have moved forward, yes. It depends. The quantity will be 
tweaked depending on how many books actually come in and how 
many actually need the treatment, and the increase in unit 
costs.
    Approximately 190,000 books and 1 million manuscript sheets 
will be treated.
    Mr. Palazzo. And so it leads me to ask, there seems to be a 
slight uptick in fiscal year 2017 of 121,000. Is that because 
you are going to do more books, or is that covering something 
different? Or do you expect more books because it is a budget 
request increase.
    Mr. Mao. Exactly. And there is additional cost for that. We 
are moving forward, and we anticipate that there might be some 
more books. It really is a little hard to tell the exact 
numbers, but I can certainly get back to you with some firm 
numbers, if you would like.
    Mr. Palazzo. And I could have done some more digging of my 
own, but the $5.5 million, is that personnel? Is it process? Is 
it materials? Chemicals?
    Mr. Mao. It is a combination of all of that. Part of it is, 
of course, we have a contract on mass deacidification, so 
certainly there are costs associated with that, and there are 
costs associated with the different pieces of the project.
    Mr. Palazzo. Is this off-site?
    Mr. Mao. Yes, some of it is.
    Mr. Palazzo. Is there a way a Member can walk over to the 
Library and get you all to show us how you actually----
    Mr. Mao. Sure, certainly. Come over, and we would be happy 
to show you what we do.
    Mr. Palazzo. All right. That was my primary question. Thank 
you.
    Mr. Graves. Ms. Wasserman Schultz.

                     CONGRESSIONAL RESEARCH SERVICE

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    If I can ask Dr. Mazanec to come to the table, please.
    Thank you very much. Thank you for the work that you do 
to--and all of the folks that work at CRS--to support Members 
of Congress who really need the information that you provide to 
be able to represent our constituents effectively.
    Your request is $114.4 million. That is a 7 percent 
increase over last year, which I don't find excessive, given 
the reference I made to how flat your funding has been. Not 
only flat, it has been concave over the last 4 years. You are 
currently funded, as I mentioned, at $5.6 million less than in 
your fiscal year 2010 level.
    Can you outline for us, one, if the subcommittee continues 
to deny your budget request increases, what are the 
consequences? What is the impact? Second, what has been the 
effect of absorbing inflationary increases and mandatory pay 
increases with additional appropriations as you have gone 
through that process?
    I have another series of questions for you as well.
    Dr. Mazanec. OK. Our FTE ceiling is 651. But in reality, 
last year, in fiscal year 2015, our budget was able to support 
an FTE count of 609. We have a flat budget in 2016. That will 
require us to reduce our FTE count to approximately 599 in 
order to absorb the increase in personnel costs and 
inflationary costs.

                             CRS PERSONNNEL

    Ninety percent of the CRS budget is personnel cost. During 
my tenure at CRS, we have taken measures to increase our 
operational efficiencies. As an expert left, we would look at 
their portfolio and divvy it up and assign issue areas to other 
analysts. But there is only a finite capacity there, and CRS 
analysts are now spread exceedingly thin. In many areas, we are 
one deep.
    So what would be the consequences of a flat budget? If CRS 
capacities are not maintained, gap areas will intensify. Right 
now we have a gap due to an unanticipated departure in Russian 
and Ukrainian foreign policy. In these areas, as gaps develop, 
we cannot always immediately backfill, which means it becomes a 
challenge for us to produce the highly analytical, nuanced work 
that you expect of us.
    I can almost state with 100 percent assurance that 
timelines will increase, especially in the areas that are high 
volume: education, health care, defense, appropriations, and 
budget. Analysts will be challenged to update and maintain the 
currency of their reports.
    And finally, one more thing. I don't think we will be able 
to effectively leverage the vast amount of data that is 
currently being collected to better inform the work that you 
expect of us.
    Ms. Wasserman Schultz. Thank you.
    And that is my concern as well, is we need CRS to be 
responsive. I know when I have asked for CRS reports, Mr. 
Chairman, you want to know what you want to know when you want 
to know it, and it often is time sensitive. And so this 
constant flat funding or even reduced funding will continue to 
cause us problems.

                      PUBLIC ACCESS TO CRS REPORTS

    Dr. Mazanec, I am anticipating that we are going to have 
another debate about the release and public posting of your 
reports.
    And, Mr. Newlen, I would like to also ask your opinion on 
this since you were there at CRS for a very long time.
    My concern with basically making CRS like GAO, where you 
post your reports on a Web site, is that it would basically 
bring all the work that you are doing to a screeching halt. I 
mean, GAO, we have great respect for the work that they do. 
They have a completely different function. They provide 
comprehensive analysis on complex topics. They make 
recommendations to Congress.
    And what they are not billed to do though is act quickly 
and responsibly and privately. And my concern is that CRS, if 
you have a new interface that is public, in other words, your 
interface is with the public not with Congress, that we are 
going to create another GAO.
    So could you share with the subcommittee your insights, 
both of your insights, on CRS' culture and how any change to 
those policies related to releasing reports could change that 
culture. And I know supporters of releasing reports to the 
public on the CRS Web site point to language in the 
appropriations bills as the reasons that reports are not 
listed. So if this language was removed, would that then allow 
CRS to release their reports?
    And lastly, so I am mindful of the time, is there a middle 
ground on this issue that we could release certain 
informational reports through the House Clerk and the Secretary 
of the Senate so that the House itself is controlling what gets 
released as opposed to turning you into an agency that 
basically directly serves the public instead of serving as a 
service for the Congress?
    Because there are times when, as I have said before, Mr. 
Chairman, you and I might have an idea that we may never decide 
to explore. But if we change the way CRS works and suddenly 
everything, every idea we ever explore is immediately posted on 
a Web site, then a lot of things that you begin to explore as a 
Member of Congress, as a legislator with the speech and debate 
clause being in the Constitution, wouldn't be ripe or ready or 
even appropriate at the incubator stage of preparation.
    So I just would love to have both of your thoughts.
    Dr. Mazanec. Do you want to start?
    Mr. Newlen. Go ahead.
    Dr. Mazanec. As you know, CRS--and I think I can speak for 
the Library--does not take a formal position on this. It is a 
complex situation, but there are potential impacts and 
unintended consequences. And let me just run through three, one 
of which you already mentioned, which is that as we release our 
reports and our products more broadly, it may alter the way we 
conceptualize and perform our work for Congress.
    Right now, we work for a congressional audience. We write 
for a congressional audience. We meet your timelines. And we 
are high volume. As we take on more of a public presence, that 
may shift. Analysts may feel they have to vet their work more 
carefully. They may feel that only certain topics should be 
written about; realizing that their reports will be released 
into the public domain.
    Another potential or unintended consequence could be the 
erosion of the speech or debate protection that CRS has for the 
confidential work it does for Congress. As we take on more of a 
public persona, so to speak, the Service may be viewed 
differently by the courts. Previous decisions that have upheld 
the speech or debate protection for CRS, have been predicated 
on the fact that we work exclusively for the Congress.
    The other thing is there are going to be tangible costs to 
publish our reports. We have to put them in a format for public 
release. We would also have to manage the expectations from the 
public for us to be responsive to them.
    Ms. Wasserman Schultz. Thank you.

                             IMPACT ON CRS

    Mr. Newlen. I think Dr. Mazanec covered the concerns that 
Congress needs to think about. You hit the nail on the head in 
terms of options. That is making the least impact on CRS 
analysts and any kind of outside pressure that they might 
experience. You suggested that the House would work with CRS.
    I think these are all options worth exploring, we should 
outline those options that are most cost efficient, have the 
least impact on CRS, and provide you with the kind of 
information and analysis that you need.
    Ms. Wasserman Schultz. Seems to me that that, Mr. Chairman, 
is a way that we could provide transparency. I am from the 
Sunshine State. That is not being funny--we have the most 
stringent sunshine law in the country. So I am from that 
culture.
    But I also know that there are things that we all do as 
legislators that are the dumbest ideas on the face of the 
Earth, and when you consult an expert at CRS, they help shut 
you down right away. You may not want to expose that dumb idea 
or it is not the direction that you ultimately choose to go.
    So there are unintended consequences. There are fully baked 
reports that we could share. I just think to protect the speech 
and debate requirements that we have here, that that is 
something that should be initiated and controlled by the House 
of Representatives and the Senate rather than it forced on the 
people who are providing a service to us to be able to do our 
jobs effectively.
    So thank you. I yield back.

                          CONGRESSIONAL DIALOG

    Mr. Graves. Thank you. Yes, well said.
    In addition to, I think it is not the intent of this 
committee to put any additional duties or responsibilities or 
CRS whatsoever. You are doing a great job with limited 
resources, and we are grateful for that. And I have read your 
testimonies. Remarkable work.
    Ms. Wasserman Schultz. Let's get them more money, Mr. 
Chairman.
    Mr. Graves. We are very limited here.
    Mr. Farr.

                               USE OF CRS

    Mr. Farr. Thank you very much.
    I have to confess something here: I am an addict. I have 
been told that our office is one of the 10 top users of CRS. So 
I am really addicted to it. I think that the worst thing in the 
world would be to allow CRS opened up. It will become the 
biggest recipient of homework assignments in the United States.
    We don't allow our lawyers to draft bills for the outside 
world. That is done inside. I think that the reference research 
service is ours and we ought to use it as such. I say that 
because I just learned from CRS that as a retired Member, you 
still get to get access to it.
    David Mao, I just want to tell you, I have so enjoyed your 
leadership and your spirit. I wish you weren't the acting 
Librarian. I wish you were the permanent one.

                        USE OF PRIVATE DONATIONS

    But I just thought of something. We were discussing whether 
private donations can be used for restoring the Capitol and the 
Grounds, and it seems to me the Library of Congress, don't you 
have the ability to receive private gifts from foundations and 
individuals and things like that?
    Mr. Mao. Are you talking about money or books?
    Mr. Farr. Money.
    Mr. Mao. Yes, we can certainly receive donations, and we do 
receive donations.
    Mr. Farr. Have there been any problems with people sort of 
saying, well, you know, if you get a private donation, like 
from the Ford Foundation or something, is there a concern that 
it is going to be used for commercial purposes?
    Mr. Mao. No, not at all. And we have lots of donations and 
gift agreements with people, individuals, companies, and 
corporations, that may have a particular interest in a 
particular collection area to help supplement or they may 
encourage us to have programs in certain areas. And it allows 
us to do these extra things that our sparse appropriated 
dollars don't necessarily allow us to do. And so we do accept 
donations.
    Mr. Farr. I think this is going to generate another 
research question for CRS, the question being why can't we use 
private donations for restoration projects here in the Capitol, 
because that was brought up yesterday when we were talking 
about it.

                       PRIMARY COMPUTING FACILITY

    We talked a little bit yesterday, I don't know if you were 
here, but we talked about this co-location of the data center 
in southwest Virginia. the chair and ranking knew more about it 
than I did, that that seems to be on target. But I don't think 
any money has been appropriated for it.
    The question here is, if the Library does not get the funds 
requested in the fiscal year 2017 budget, what would be the 
impact on the Library's services? What would be the fiscal 
impact on the Library if it is required to build its own new 
data center? I don't even know if that is an option. I don't 
know if the House has agreed to accommodate the Library in co-
location.
    Mr. Mao. Well, thank you. The Library is interested, as you 
know from our budget request, in participating with the House 
in the legislative branch data center. We have had great 
support from the House in working with the House, and, in fact, 
we have based a lot of our decisions on the great studies that 
the House has done and working in tandem with them in providing 
us with the great studies that they have already done so that 
we don't have to recreate the wheel.
    The key question is the money. So we don't have the funding 
to actually move our data center.
    Mr. Farr. Is that in your budget?
    Mr. Mao. What?
    Mr. Farr. The funding. Is the money there to--well, if you 
co-locate, that means that the design of this center is going 
to have to be bigger, right?
    Mr. Mao. No. There would be room at the House data center 
for a Library of Congress to--legislative branch data center--
for the Library to participate along with the House. What we 
are asking for is to actually move, and that is what the 
funding is for. There is approximately $55 million total.
    Mr. Farr. I don't mean to ask this question if it is all on 
track, but I got the feeling somehow, either discussing with 
you or others, that there was some glitch in this process.
    Mr. Mao. No, we are very happy with moving forward. It is 
just the money to be able to afford to do it.
    Mr. Farr. But that is in your budget?
    Mr. Mao. That is in the budget request, yes.
    Mr. Farr. So the question is for Congress to approve it or 
you can't do the co-location.
    Mr. Mao. That is correct. We would submit it again next 
year because we do believe that it is the best practice moving 
forward and that we would need to do that, if not now then at 
some point.
    Mr. Farr. Have we ever denied that before or cut back that 
request?
    Mr. Mao. We haven't asked for it before.
    Mr. Farr. All right.

                        VETERANS HISTORY PROJECT

    The other question I have is on the Veterans History 
Project, which, by the way, was created 10 or 12 years ago.
    Mr. Mao. Fifteen.
    Mr. Farr. Fifteen years ago. Congress created the 
authorization that we could go out and collect oral history 
projects from veterans of any war. Usually it's all the heroes 
who get the medals. But part of our national cultural 
collection is what grandpa did during the war, a sort of Story 
Corps-type things.
    I have used it in my district and it is just--I mean, 
everybody who sees these things ends up in tears. People, 
families, spouses even say: My husband never told me about his 
war experience. But he will tell his grandson or granddaughter, 
who usually gets an assignment as a school project, to go out 
and interview grandpa, and the vets decide at that age, well, 
maybe--I have never told these stories, never wanted to, but I 
will do it. Then we can archive these stories in the Library of 
Congress. I think it has really taken off and it gives our 
veterans a chance to feel like they are really appreciated.
    I see that you ask for a 4 percent increase. I want to 
know, is that enough? Because I think every 435 Members of 
Congress are now starting to use this process as a constituent 
tool, especially now that we have troops back from Iraq and 
Afghanistan. Are there any special plans to reach out to this 
particular group of veterans to record their stories?
    Mr. Mao. Yes. And so to answer your first question, we 
certainly would take more money and would appreciate having 
that. But seriously, it is a great project and it is a great 
program that Congress----
    Mr. Farr. But 4 percent will allow----
    Mr. Mao. Allow us to keep pace. And, in fact, we just 
passed our 100,000 mark. We celebrated receiving our 100,000th 
oral history to add to the archive, and it is now the largest 
oral archive history in the United States. And it is a great 
way for us to continue to honor the men and women that have 
served.
    Mr. Farr. I, frankly, think that every library in the 
United States ought to have oral history of that community. 
That ought to be just part of the American culture. We need to 
always tell our stories.
    Mr. Mao. Yes.
    Mr. Farr. That is how all information was passed along in 
the early days. So we ought to go back to capturing that.

                            SPOKEN LANGUAGES

    Mary, how many languages are there, do you speak in your 
Service?
    Dr. Mazanec. That is an interesting question. I don't have 
the answer to that.
    Mr. Farr. Are all your area specialists also linguists?
    Dr. Mazanec. No, not necessarily.
    Mr. Farr. So not all of them can read the local----
    Dr. Mazanec. No. But I can find out how many different 
languages are represented in the CRS staff and get back to you.
    Mr. Farr. I have traveled mostly in Latin America and 
everybody is fluent in Spanish. But we were talking the other 
day about how thin CRS is. It has area specialists, just like 
the military has foreign area officers. FAOs really live in the 
culture, they live in those countries and in those regions. For 
CRS area specialists to really catch up and sort of have a 
refresher, CRS ought to be give sabbaticals for your area 
specialists. But you told me that there is nobody to fill in 
while they're gone.
    Dr. Mazanec. Well, our travel and training budget has also 
been one of the line items that we have reduced in order to 
maintain the expertise across all the issue areas. And I know 
that in my Foreign Affairs, Defense and Trade Division, the 
analysts that do the regions or the countries do feel they need 
in-country experience in order to be credible.
    Mr. Farr. Well, we just ought to think about that when we 
are looking at that budget.

              FOREIGN EXPERTISE_INTRA-LIBRARY PARTNERSHIPS

    Mr. Mao. If I may, Mr. Farr, sorry to interrupt, but that 
is one of the great reasons why the Library is such a fabulous 
institution where we can all help each other out. Certainly in 
the Law Library there is a large staff of foreign-trained 
attorneys, and they are all foreign-born and speak the 
language.
    And to the extent that CRS analysts need assistance with a 
specific language or linguistic skills, we try to help out 
across the entire Library, and that is not necessarily even the 
Law Library. We have catalogers, people in our reading rooms, 
in our area study reading rooms, that speak the language.
    Mr. Farr. What I am really keen on, and this is for 
everybody in this room, are lessons I learned while negotiating 
with Plan Colombia. There we ended up trying to revitalize or 
upgrading all the institutions in the Columbian Government. The 
United States was angry with the military in Colombia because 
they were violating all kinds of human rights and stuff.
    We finally got around to realizing that the military is an 
institution of government. You can't just ignore the military 
and fund everything else. You have to train and upgrade and 
clean up parts of the Colombian Government. Now Columbia is one 
of our key allies in the world, including their military. Very 
professionalized.

                 HOUSE DEMOCRACY PARTNERSHIP COMMITTEE

    What we always forget to do is to help professionalize the 
legislative branch of government. The House Democracy 
Partnership Committee is reaching out to do this. Members of 
Congress talk parliamentarian to parliamentarian to emerging 
democratic nations.
    I think what we need to do is leave behind or allow staff 
members from the Library of Congress and CRS to travel to these 
emerging democracies and work with their staffs. Many of these 
countries tell us: We want some independent information. We 
want a budget office. We want a Library of Congress.
    But that is not in our budget. I know we have had 
difficulties asking the Library to sponsor Open World. The 
ranking member and I have had two different opinions on that. 
But I understand the Senate reauthorized it and appropriated 
money last year.
    But I understand that Open World directed to create a 
strategic plan on how it could collaborate with other 
congressional engagement activities, like the House Democracy 
Partnership Committee. That plan is due at the end of this 
month, right? Is it ready? Or who does that?
    Mr. Mao. Not sure.
    Dr. Mazanec. To engage with HDP?
    Mr. Farr. Yes, that plan is supposed to be due to Congress 
on March 31.
    Do we know?
    Mr. Graves. I don't know. We will have to get back with you 
on that one. The question continues, yes.

                            EMPLOYEE MORALE

    Mr. Farr. Last one. Just a question on how you do your 
professional sort of upgrading. I mean, there have been rumors 
around that among staff at around CRS is, in some reports, 
declining morale. I don't know whether it is true or just, you 
know, there are always people who are complaining.
    I wondered whether you might have thought about bringing in 
an independent outside management consultant to perform an 
assessment and recommendations on possible improvements to 
morale and welfare of the Library and CRS.

                           EMPLOYEE FEEDBACK

    Mr. Mao. Well, I mean, I will certainly defer to Dr. 
Mazanec to talk specifically about CRS. But what I would say 
is, I think the morale question at the Library, my experience 
in walking around and speaking to employees and meeting with 
employees over the last--I guess since October, when I assumed 
this position--is that they are a very dedicated staff and all 
very concerned and really into the work of the Library of 
Congress and want it to continue to be the great place that it 
is.
    And we have walked around, both Robert and I, and we have 
met with small groups to hear what people think about different 
areas, because certainly it has been a long time since there 
has been a transition. And during the time of transition we 
want to make sure that we engage the Library and have them 
involved in setting the course for the Library moving forward. 
And from my experience, we have gotten a lot of great, great 
feedback from employees about different things at the Library. 
And so certainly we will take those into consideration.
    Mr. Farr. Well, I guess it depends on the extent of--if 
there is nothing broken, don't fix it. But there have been 
complaints.

                               CRS STAFF

    Dr. Mazanec. Let me just make a few points.
    First of all, I would echo what David said about the 
dedication of the CRS staff. It is one of the--actually the 
best staff, the best group of colleagues that I have been 
associated with in my professional career.
    I think, though, we are asking them to do more with less, 
and they are stretched, and they are feeling that. And that 
sends a message to them about the value that is placed in CRS.
    I just finished a 5-year strategic plan for CRS. I held 
over 40 hours of all-hands and brown bags and there was a 
tremendous engagement. They are interested in the institution. 
They are very dedicated to the mission. They love working for 
Congress.
    Mr. Farr. We just don't pay them enough, or we give them 
too much work.
    Dr. Mazanec. They are here to support you. They are here to 
support you.
    Mr. Farr. Well, maybe, I don't know----
    Mr. Graves. Mr. Farr, we actually have one more panel, if 
you are open to inviting Ms. Pallante up, and we will ease into 
the next panel.
    Doctor, thank you very much for all you are doing, for 
answering the questions.
    Mr. Newlen. Mr. Chairman, could I just make one remark.
    Mr. Graves. You could. Could I invite Ms. Pallante up to 
join the panel.

                            DEDICATED STAFF

    Mr. Newlen. I just wanted to thank Ms. Wasserman Schultz 
for bringing up the Rosa Parks Collection today, because this 
is just a recent example of what our talented and dedicated 
staff do so well: acquire, preserve, and make accessible rare 
and unique material. And this is a wonderful, wonderful example 
of that.
    Ms. Wasserman Schultz. And have the opportunity for people 
to see it.
    Mr. Newlen. Exactly. So thank you for bringing it up.
    Ms. Wasserman Schultz. You are welcome.

                                          Wednesday, March 2, 2016.

           U.S. COPYRIGHT PROGRAM PROJECT AND ACTIVITY REVIEW

                               WITNESSES

DAVID S. MAO, ACTING LIBRARIAN OF CONGRESS
MARIA A. PALLANTE, REGISTER AND DIRECTOR

                        COPYRIGHT MODERNIZATION

    Mr. Graves. Well, thank you. That is nice.
    Thank you for joining us. We will sort of step into a 
second panel here, to discuss the digital age and Copyrights 
just a little bit.
    I know in fiscal year 2015 the Senate requested, and GAO, 
to examine the Copyrights' information technology 
infrastructure and to identify any deficiencies or obstacles to 
serving the copyright community in a modernized environment. 
Now, this report was released almost 1 year ago.
    Last year, this subcommittee included report language 
requesting a detailed plan on necessary IT upgrades that are 
required for a 21st century copyright organization.
    Now, we received this report this past Friday, the 26th. We 
want to thank you for your work on the report. And I know there 
have been some hearings held by some other committees. But this 
committee as well wants to hear your thoughts. And understand 
that you have a very different mission than the Library, the 
broader Library in itself.
    So the purpose of this hearing is not to talk about making 
the Copyright Office an independent agency--I know that has 
been a topic in past, but not today--but to focus on the future 
of the Copyright Office within the Library of Congress and what 
is needed to ensure that we are able to meet the demands of the 
digital age.
    So I know there is not a statement or such that we would 
ask you to present, but I know that we will have some 
questions. And I might start off, if that is OK, and then Ms. 
Wasserman Schultz, because I think mine is rather simple 
because it just comes from questions you have probably already 
received from those who are really trying to utilize the 
Copyright Office in the right way and have access to it. you 
have discussed in your report that the IT in the Copyright 
Office is behind the times, and that may be a little bit of 
your quote there.

                  COPYRIGHT OFFICE IN THE DIGITAL AGE

    So when, at this point when our Nation has been online for 
about 20 years now, will we be in the right spot when it comes 
to the Copyright Office? And why is it taking so long, in your 
opinion?
    Ms. Pallante. Well, thank you, Chairman Graves. And before 
I answer your question, thank you for the support of the 
committee the last couple of years, with respect especially to 
our registration program. We were able to add to our depleted 
staff and that has really made a difference.
    So this report is part reacting to what experts in the 
office know to be deficiencies currently, but it is very much 
looking to where the copyright system is going as well. So I 
wanted to make that point because I think good government is 
future focused.
    And we know that, for example, people will be registering 
on phones. They want to look on their tablets to find out who 
owns what. They want to create software APIs to collect our 
data and create, say, a new delivery service. And so we are 
focused on that, where is the system, where is the marketplace.

                    COPYRIGHT INFORMATION TECHNOLOGY

    What I would say in direct response to your question is 
that when the Copyright Office--and this is all before our 
time--first went online, the way that it was constructed was 
that the Copyright Office would control at the application 
level the software interface that customers see, but the 
underlying IT would be controlled by the Library agencywide.
    Over time, I think that has broken down, in part just 
because what we do is incredibly complex. It is a 24/7 focus. 
It is inefficient to try to explain our needs to a different 
department. And that department doesn't have the benefit of 
working side by side with the experts in the Copyright Office.
    So everybody else--and some of my division heads are here 
today--are by my side. The recordation staff, the registration 
staff, the statutory license experts, the policy team, the 
lawyers, the operations people. But the IT is not with us. And 
that is, I think, where we are. I also think that we have been 
underresourced.
    Mr. Graves. So it will take time, still a little more time.
    Ms. Pallante. Which I thought you probably knew I would 
say. I mean, we have a plan. That was the long history. But the 
good news is we can not only fix the deficiencies, but I think 
get ahead of them. That is the goal.
    Mr. Graves. That is good news. Good news.
    Well, one other question, then Ms. Wasserman Schultz.

                SEARCHABLE COPYRIGHT REGISTRATION SYSTEM

    What I hear probably the most about when it comes to the 
Copyrights is why is there not an updated searchable 
registration system that is available to all the users who are 
really trying to use a system correctly and not violate 
anyone's copyrights?
    Ms. Pallante. Yes, no, I agree. That has been my talking 
point from the moment I became Register 5 years ago.
    So you are talking about the back end of the system as 
opposed to the filing side of the system. So the system, I 
think, probably was designed primarily to allow people that 
used to register with paper to do the same thing online. And it 
is searchable. I mean, I don't know if you are hearing that it 
is not searchable. It is not whiz, bang, Internet savvy 
searchable. I think that is what people are saying, and we 
agree, and it should be.
    And why is that important? Because you want to generate 
participation in the system and you want people to be found 
once they have registered with the government. And they don't 
have to. It is a voluntary system.
    And we are trying to create a platform where people can 
find out that so-and-so owns the rights or part of the rights. 
You have many rights holders owning various parts of work, 
music, the audio-visual, the underlying text, and you want to 
be able not just to find them and then call them, you want to 
be able to connect to the metadata and know exactly who owns 
what. But you also want to know if there are no rights owners, 
it is in public domain, you can use it.
    Mr. Graves. Maybe I left out a phrase, maybe updated and 
searchable.
    Ms. Pallante. Yes.

                 SEARCHABLE HISTORIC COPYRIGHT RECORDS

    Mr. Graves. I understand that something can be searchable, 
but if something is current today, is it available and 
searchable on the other end today? That that might be the 
question.
    Ms. Pallante. It is searchable within a reasonable 
timeframe.
    Mr. Graves. A day or 2 or a month.
    Ms. Pallante. But not all records going back to the Civil 
War are searchable. So it is basically after 1978. And most of 
those things are what people are using, but there is a 
historical piece that has not yet been digitized, because the 
system started--it was a different system starting at that 
point in time.
    So the modernization effort would be comprehensive. You 
have to fix the filing side. You have to generate interest and 
participation and encourage people to put their data into the 
government system. And then you want to make it clearly 
searchable, user friendly, so that people can come and use that 
data and use it for a different kind of business on the back 
end.
    Mr. Graves. Is that true with music or everything?
    Ms. Pallante. Yes, music is a great example. Music is the 
best example, because if you are a music creator, you want to 
be able to tap into an app or a program that you are creating 
the music in and register seamlessly, not log off, log onto our 
funky system, put your data in, hope that it catches up.
    Then on the back end, if you are an innovative music 
delivery service, you should be able to come and get all of the 
benefit of the government data on equal footing and build your 
business from that.
    And so we are supporting industries on both sides of the 
copyright equation. That is a good use of government. That is 
what we have been saying.
    Mr. Graves. Thank you for your explanation.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you.
    I also want to acknowledge that we are not talking about 
the future status of the office here, but the confines of the 
Library.

                        COPYRIGHT BUDGET REQUEST

    Your budget request was built many months ago and we did 
just receive your plan on Friday.
    Ms. Pallante. Yes.
    Ms. Wasserman Schultz. We received it early, which was nice 
and refreshing. But I am concerned that you built a budget 
request that doesn't probably line up with your report.
    Ms. Pallante. Yes, that is correct.
    Ms. Wasserman Schultz. How are we going to reconcile that 
we have to build a budget but not ignore the report until we 
build the next budget. I will just ask my questions all at once 
and expedite this.

                         COPYRIGHT STAKEHOLDERS

    The other fiscal year 2016 requirement was that your office 
was to go out and ask stakeholders for their opinion of how we 
fund the Copyright Office and take their temperature in terms 
of their willingness to pay to improve IT infrastructure. I am 
guessing that there is probably willingness out there.
    I don't want to prejudge what we are likely to hear from 
the public when you go through the comment period, but I would 
like you to prejudge what we are likely hear from, large versus 
small copyright owners. Also, if you could just give a brief 
explanation of what we are allowed to pay for through fees 
versus appropriations at the moment.
    Ms. Pallante. Sure. So we have gone out with the Federal 
Register process. It is in motion. You will have comments from 
us, I would say, the first week in April. It closes on the 31st 
of March, I think.
    If I were to prejudge it, I think what you are going to 
hear is that it should be a mix of appropriations and fees, as 
it always has been, especially because you are potentially 
asking, if you focus mostly on fees, one group of contributors 
to the economy to fund the other part of the economy or 
subsidize them. It will feel that way to people because we 
don't charge them----
    Ms. Wasserman Schultz. To large copyright holders.
    Ms. Pallante. I wasn't even getting into the small versus 
large. I just mean the copyright owners who are filing and 
paying to put the data in versus those who would benefit from 
using it and building different businesses on the back end 
based on the fact that they have access to the licenses or the 
data or the royalties, whatever it might be. And that is free, 
and I think it has always been free. And again, we want to 
government to provide a platform for that kind of exchange.
    So, I guess, I am just saying that I think it is probably 
not the case that you are going to hear that the people paying 
into the system feel like they should pay for all of the 
modernization, especially because, as the chairman said, some 
of the complaints are on the back end. They want to be able to 
search on the back end.
    So because it is a voluntary system, it is an art. You will 
also see that big copyright owners are probably willing to 
subsidize small copyright owners. We already took their 
temperature on that a little bit this last fee schedule. But 
they also expect better service, and they expect their fees to 
be put directly back into the copyright system. And that is, I 
think, part and parcel to this plan.
    Ms. Wasserman Schultz. A little more whiz, bang.
    Ms. Pallante. Yes. I think, because, again, because we 
haven't----

                             COPYRIGHT FEES

    Mr. Farr. Where do those fees go now?
    Ms. Pallante. The ability of the Copyright Office to spend 
fees for IT is very limited because the IT is not ours. It is 
agencywide IT. And so if you are asking them to pay more, I 
think--and this is what we are hearing--the fees have to be put 
back directly into the copyright system infrastructure, 
planning, IT, operability, focus.
    Mr. Farr. So they are just going in the general fund, are 
they in the Treasury?
    Ms. Pallante. Well, eventually they go to the Treasury. 
They come through Pay.gov. I think the issue is the more you 
charge, the more that they want to see the results.
    Ms. Wasserman Schultz. They are not plowed back into the 
service right now?

                          COPYRIGHT IT SYSTEMS

    Ms. Pallante. I don't think you could say that they are--
because we are not picking IT systems based on the copyright 
system, we are picking agencywide systems. There is that 
concern then of course the system is not working right now for 
copyright owners or for copyright users.
    That doesn't mean there aren't synergies. That doesn't mean 
that the Copyright Office and the Library shouldn't have shared 
services, that we shouldn't have points where we touch. It just 
means that we have to recognize that there may not be a one-
size-fits-all.
    And this has been a very long time coming, and I think most 
people agree with that. It is just figuring out what the points 
of alignment are and allowing the office to take over the IT 
that it is an expert in or allow them to work next to the 
experts.
    Ms. Wasserman Schultz. you are building, it looks like, an 
independent IT system, but you are still housed within the 
Library?
    Ms. Pallante. Oh, yes. I mean, it doesn't have anything to 
do with the constitutional, legal arguments about whether there 
are conflicts and what the structure should be and the 
interagency process with other IP organizations and the 
government.
    It only is saying that we built it, we built an online 
registration system. Recordation is still paper. We have all of 
these other things we need to connect. It is unlikely we can do 
that in the current paradigm where we are going to a central IT 
office and saying, as one of your many clients, here are our 
needs, because this plan is a 24/7, 5-year plan and it is going 
to take that. And it takes being in the Copyright Office.
    So we have a tiny, little team right now, and we have no 
responsibility for administering IT as to the underlying 
systems, the servers, et cetera. And it is stressful. We had an 
outage. It was extremely stressful for the Copyright Office. 
Because in part--I mean, things happen--but in part it is 
because we are on the outside of those failures or plans.
    I don't know if I answered your question.
    Ms. Wasserman Schultz. You did. Thank you.
    Mr. Graves. Mr. Farr, any questions?
    Did you have anything you wanted to add, Mr. Mao?
    Anything additional?

                             AGENCY SUPPORT

    Mr. Mao. No. We look forward to this plan as well and we 
are looking to working together, because that is what we need 
to do. The Copyright Office, their clients are clients of the 
Library of Congress and the Library wants to make sure that all 
of the clients are being served. And that is why our budget 
proposal is what it is, to make sure that our infrastructure 
can support all of our clients.

                       CHAIRMAN'S CLOSING REMARKS

    Mr. Graves. Great. Well, if there are no other questions, 
let me thank you all for joining us today, for working together 
for the betterment of what we are all trying to do here for our 
constituency across the country. And we will stand in recess 
until we are called back.
    [Questions submitted for the record and additional 
statements for the record follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page

Ayers, S. T......................................................    37

Braddock, R. L...................................................     1

Burd, James......................................................   240

Dine, K. C.......................................................     1

Dodaro, G. L.....................................................   198

Haas, K. L.......................................................    63

Hall, Keith......................................................   221

Irving, P. D.....................................................    63

Mao, D. S 




Newlen, R. R.....................................................   125

O'Keefe, J. M....................................................   229

Pallante, M. A...................................................   163

Plaster, Will....................................................    63

Sapin, B. J......................................................   225

Schniderman, Saul................................................   244

Schuman, Daniel..................................................   256

Stiverson, K. A..................................................   251

Vance-Cooks, Davita..............................................   187

Verderosa, M. R..................................................     1




                               I N D E X

                              ----------                              

                      United States Capitol Police

                                                                   Page
Concealed Weapons in the Capitol Complex.........................    29
Coordination with Law Enforcement Agencies in DC.................    26
Future Threats and Challenges....................................    21
House Garages and Enhanced Security..............................    30
Long-term Impact of the Spending Plan for Enhanced Security......    22
Longworth Magnetometers..........................................    27
Opening Statement of Chairman Tom Graves.........................     1
Opening Statement of Ranking Member Wasserman Schultz............     2
Opening Statement of the Honorable Nita M. Lowey.................     3
Questions for the Record, Chairman Graves........................    33
Role of the Capitol Police Board in the USCP Budget Process......    23
State of USCP Readiness..........................................    23
Statement of Chief Kim C. Dine...................................     4
Testimony of Chief Kim C. Dine...................................     8
USCP Radio System................................................    25

                     Architect of the Capitol (AOC)

Acting Chairman Remarks..........................................    37
Advice and Lessons Learned.......................................    50
Cannon Renewal...................................................    51
Capitol Power Plant..............................................    53
Data Center Relocation...........................................    49
Energy Savings...................................................    49
House Page Dorm..................................................    45
Questions for the Record.........................................    54
    Cannon House Office Building.................................    54
    Capitol Dome Restoration.....................................    57
    Rayburn Building Garage Rehabilitation.......................    57
    FTE's........................................................    58
    Zero Based Budgeting.........................................    58
    Capitol Police Buildings and Grounds.........................    59
    Grant Memorial...............................................    60
    Stone Preservation...........................................    61
Ranking Member Remarks...........................................    37
Rayburn Small Arms Firing Range..................................    46
Summary Statement of Architect of the Capitol....................    38
    Stewardship Through Prioritization...........................    38
    Fiscal Year 2017 Request.....................................    39
U.S. Capitol Dome................................................    47
Working Capital Fund.............................................    48
Written Statement of Stephen T. Ayers............................    40

                     U.S. House of Representatives

Access to the Capitol Campus.....................................   101
Adequate Resources for Cyber Security............................    99
Amount of Dollars Reprogrammed for Lawsuits......................   104
CAO Response for Lawsuit Reprogramming Question..................   109
CAO Response for Sodexo Question.................................   109
Capitol Police Board.............................................    92
Capitol Police Board (continued).................................   102
Capitol Police Board Oversight...................................    93
Committee and Capitol Police Board Meeting.......................   109
Determining the Members' Representational Allowances Bottom-line.   110
Electronic Voting Machines.......................................    91
Feminine Hygiene Availability (continued)........................   109
Feminine Hygiene Products Availability...........................   108
Garage Security Initiative.......................................    94
Garage Security Initiative (continued)...........................   101
House Cyber Security.............................................    97
Increasing Members' Representational Allowance Budget............   110
Magnetometers throughout the House Campus........................   100
Need for the Garage Security Initiative..........................    95
Opening Statement of Hon. Debbie Wasserman Schultz, Ranking 
  Member.........................................................    64
Opening Statement of Hon. Tom Graves, Chairman...................    63
Order of the Longworth Security Initiative.......................   102
Questions for the Record.........................................   113
Recruiting and Retaining Quality Staff...........................    99
Reforming the Capitol Police Board...............................    93
Screening Members................................................   102
Sodexo-House Food Service Vendor.................................   108
Statement of Hon. E. Scott Rigell................................    91
Statement of Hon. Karen Haas, Clerk, U.S. House of 
  Representatives................................................    66
Statement of Hon. Paul Irving, Sergeant at Arms, U.S. House of 
  Representatives................................................    75
Statement of Hon. Sam Farr.......................................   100
Statement of Hon. Steven M. Palazzo..............................    96
Statement of Hon. Will Plaster, Chief Administrative Officer, 
  U.S. House of Representatives..................................    84
Structure of the Capitol Police Board............................    92
Termination Timeline for Sodexo Food Services Contract...........   109
The House Sergeant at Arms vs The Senate Sergeant at Arms........    93
Three General Areas of Cyber Security............................    98

                          Library of Congress

Agency Support...................................................   168
Chairman's Closing Remarks.......................................   168
Congressional Dialog 



Congressional Research Service...................................   154
    CRS Personnel................................................   154
    CRS Staff....................................................   161
    Impact on CRS................................................   156
    Public Access to CRS Reports.................................   155
    Use of CRS...................................................   157
Copyright Office:
    Copyright Budget Request.....................................   165
    Copyright Fees...............................................   167
    Copyright Information Technology.............................   164
    Copyright IT Systems.........................................   167
    Copyright Modernization......................................   163
    Copyright Office in the Digital Age..........................   163
    Copyright Stakeholders.......................................   166
    Searchable Copyright Registration System.....................   164
    Searchable Historic Copyright Records........................   165
Dedicated Staff..................................................   162
Employee Feedback................................................   161
Employee Morale..................................................   161
Foreign Expertise--Intra-Library Partnerships....................   160
House Democracy Partnership Committee............................   160
Mass Deacidification Program.....................................   153
Opening Statements:
    Acting Librarian of Congress.................................   127
    Chairman Graves..............................................   125
    Ms. Wasserman Schultz........................................   125
Preservation--Mass Deacidification...............................   153
Primary Computing Facility.......................................   158
Questions for the Record from the Chairman:
    Copyright Office.............................................   179
    Information Technology.......................................   170
    Mass Deacidification.........................................   169
    National Library Service.....................................   178
    Primary Computing Facility...................................   177
Questions for the Record from Mr. Farr:
    Mass Deacidification Program.................................   183
    Supporting Congress with Foreign Affairs.....................   183
Spoken Languages.................................................   159
Use of Private Donations.........................................   157
Veterans History Project.........................................   159
Written Statements:
    Acting Librarian of Congress.................................   130
    Director, Congressional Research Service.....................   138
    Register and Director of Copyrights..........................   148

                                  <all>
</pre></body></html>
